<html>
<title> - BEST PRACTICES FOR MAKING COLLEGE CAMPUSES SAFE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                       BEST PRACTICES FOR MAKING
                         COLLEGE CAMPUSES SAFE

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

              HEARING HELD IN WASHINGTON, DC, MAY 15, 2007

                               __________

                           Serial No. 110-36

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
34-744                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Ranking Minority Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Ric Keller, Florida
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           John Kline, Minnesota
Danny K. Davis, Illinois             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Kenny Marchant, Texas
Timothy H. Bishop, New York          Tom Price, Georgia
Linda T. Sanchez, California         Luis G. Fortuno, Puerto Rico
John P. Sarbanes, Maryland           Charles W. Boustany, Jr., 
Joe Sestak, Pennsylvania                 Louisiana
David Loebsack, Iowa                 Virginia Foxx, North Carolina
Mazie Hirono, Hawaii                 John R. ``Randy'' Kuhl, Jr., New 
Jason Altmire, Pennsylvania              York
John A. Yarmuth, Kentucky            Rob Bishop, Utah
Phil Hare, Illinois                  David Davis, Tennessee
Yvette D. Clarke, New York           Timothy Walberg, Michigan
Joe Courtney, Connecticut            Dean Heller, Nevada
Carol Shea-Porter, New Hampshire

                     Mark Zuckerman, Staff Director
                   Vic Klatt, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on May 15, 2007.....................................     1

Statement of Members:
    McKeon, Hon. Howard P. ``Buck,'' Senior Republican Member, 
      Committee on Education and Labor...........................     3
        Prepared statement of....................................     4
    Miller, Hon. George, Chairman, Committee on Education and 
      Labor......................................................     1
        Prepared statement of....................................     2

Statement of Witnesses:
    Cornell, Dewey G., Ph.D., forensic clinical psychologist and 
      professor of education, director of the Virginia Youth 
      Violence Project, Curry School of Education, University of 
      Virginia...................................................    20
        Prepared statement of....................................    22
    Healy, Steven J., president, International Association of 
      Campus Law Enforcement Administrators (IACLEA).............     7
        Prepared statement of....................................     9
        Attachment: Accreditation Standards and Critical Incident 
          Management.............................................    12
    Kennedy, Louanne, Ph.D., emeritus provost and vice president 
      for academic affairs, Northridge, California State 
      University System..........................................    13
        Prepared statement of....................................    16
    Walbert, Janet E., Ed.D., president, National Association of 
      Student Personnel Administrators, vice president for 
      student affairs, Arcadia University........................    25
        Prepared statement of....................................    27


                       BEST PRACTICES FOR MAKING
                         COLLEGE CAMPUSES SAFE

                              ----------                              


                         Tuesday, May 15, 2007

                     U.S. House of Representatives

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 10:00 a.m., in Room 
2175, Rayburn House Office Building, Hon. George Miller 
[chairman of the committee] presiding.
    Present: Representatives Miller, Kildee, Payne, Andrews, 
Scott, Woolsey, Hinojosa, Tierney, Kucinich, Holt, Davis of 
California, Davis of Illinois, Bishop of New York, Sestak, 
Loebsack, Altmire, Yarmuth, Hare, Clarke, Courtney, McKeon, 
Petri, Keller, Wilson, Kline, Boustany, Foxx, Kuhl, Davis of 
Tennessee, Walberg and Heller.
    Staff Present: Tylease Alli, Hearing Clerk; Denise Forte, 
Director of Education Policy; Gabriella Gomez, Senior Education 
Policy Advisor; Lloyd Horwich, Policy Advisor for Subcommittee 
on Early Childhood, Elementary and Secondary Education; Lamont 
Ivey, Staff Assistant, Education; Stephanie Moore, General 
Counsel; Joe Novotny, Chief Clerk; Lisette Partelow, Staff 
Assistant, Education; Rachel Racusen, Deputy Communications 
Director; Julie Radocchia, Education Policy Advisor; Michele 
Varnhagen, Labor Policy Director; Mark Zuckerman, Staff 
Director; Robert Borden, Minority General Counsel; Kathryn 
Bruns, Minority Legislative Assistant; Amy Jones, Minority 
Professional Staff Member; Victor Klatt, Minority Staff 
Director; Linda Stevens, Minority Chief Clerk/Assistant to the 
General Counsel; and Sally Stroup, Minority Deputy Staff 
Director.
    Chairman Miller. The Committee on Education and Labor will 
come to order. I want to welcome everyone this morning to 
today's hearing on the best practices for making college 
campuses safe.
    Nearly a month has passed since the horrific violence of 
Virginia Tech, by far the worst campus attack on our Nation's 
history. It is extremely difficult to make sense of a tragedy 
like this, and the unanswered questions about the events that 
unfolded that day will undoubtedly persist for a long time. 
Virginia Governor Tim Kaine has provided tremendous leadership 
for the Virginia Tech community and for his State during this 
painful and difficult time. The work of his Commission will 
address the ongoing questions about the tragedy on the Virginia 
Tech campus. We will look to the Commission's work for guidance 
when it releases its recommendations.
    The purpose of our hearing today is to learn from campus 
safety advocates and school administrators about how the 
Congress can help colleges and universities across the country 
to prevent and recover from tragedies. On an emergency 
preparedness front, we are particularly interested in learning 
about emergency communications systems that use the latest 
technologies. Many campuses use broadcast e-mails and text-
messaging systems that have proven to be effective in alerting 
students and staff to emergency situations. Communication, as 
we have learned, must include ways in which parents and loved 
ones can receive updates and information about students and 
staff on campus. The overall safety and emergency preparedness 
plan is just part of the equation.
    Detecting and preventing threats on the campus communities 
are another part of the equation. Comprehensive mental health 
counseling and intervention services can be incorporated into 
the daily student life on campuses to help prevent the 
individuals from acting on their emotions in a negative way. As 
we will hear today, having the appropriate personnel for every 
day of prevention services as well for the tragedies brings us 
closer to ensuring a safer learning and working environment on 
campus.
    As we examine the state of campuses today, we must also 
look at some of the more common and pervasive threats to 
students--alcohol abuse and sexual assault. According to the 
National Center on Addiction and Substance Abuse at Columbia 
University, in 2001, more than 1,700 deaths on campuses were 
caused by alcohol-related injuries. 97,000 students were 
victims of alcohol-related rape and sexual assaults, and 
696,000 students were assaulted by other students who had been 
drinking heavily. The Federal statistics show that, in 2006, 
there were more than 2,600 rapes reported by the students, a 
figure that still may not show us the full picture of the 
sexual assault trend, especially with these low reporting 
rates.
    Nothing is more important than the safety and well-being of 
our children, our students and our loved ones. As the Virginia 
Tech community continues to recover and heal from last month's 
tragedy, the best service that we can provide to the students 
and faculty and the staff members of colleges and universities 
across the country is to first listen and learn. Then we must 
decide what additional role the Federal Government, if any, can 
play in better preparing the campuses to be safe.
    We look forward to the testimony of our panel of witnesses, 
and I would now like to recognize the senior Republican of our 
committee, Mr. McKeon from California.
    [The prepared statement of Mr. Miller follows:]

   Prepared Statement of Hon. George Miller, Chairman, Committee on 
                          Education and Labor

    Welcome to today's hearing on ``Best Practices for Making College 
Campuses Safe.''
    Nearly a month has passed since the horrific violence at Virginia 
Tech--by far the worst campus attack in our nation's history. It is 
extremely difficult to make sense of a tragedy like this, and 
unanswered questions about the events that unfolded that day will 
undoubtedly persist for a long time.
    Virginia Governor Tim Kaine has provided tremendous leadership for 
the Virginia Tech community and for his state during this painful and 
difficult time. The work of his commission will address the ongoing 
questions about the tragedy on the Virginia Tech campus.
    We will look to the commission's work for guidance when it releases 
its recommendations.
    The purpose of our hearing today is to learn from campus safety 
advocates and school administrators about how the Congress can help 
colleges and universities across the country to prevent and recover 
from tragedies.
    On the emergency preparedness front, we are particularly interested 
in learning about emergency communications systems that use the latest 
technologies.
    Many campuses use broadcast emails and text-messaging systems that 
have proven to be effective in alerting students and staff of emergency 
situations.
    Communications, as we have learned, must include a way for parents 
or other loved ones to receive updates and information about students 
or staff on campus.
    The overall safety and emergency preparedness plan is just one part 
of the equation. Detecting and preventing threats on a campus community 
is the other part of the equation.
    Comprehensive mental health counseling and intervention services 
can be incorporated into daily student life on campuses, to help 
prevent individuals from acting on their emotions in a negative way.
    As we examine the state of safety on campuses today, we must also 
look at some of the more common--and pervasive--threats to students: 
alcohol abuse and sexual assault.
    According to the National Center on Addiction and Substance Abuse 
at Columbia University, in 2001, more than 1,700 deaths on campuses 
were caused by alcohol related injuries; 97,000 students were victims 
of alcohol-related rape or sexual assaults; and 696,000 students were 
assaulted by another student who had been drinking heavily. And federal 
statistics show that in 2006, there were more than 2,600 rapes reported 
by students--a figure that still may not show us the full picture given 
that sexual assaults tend to have especially low reporting rates.
    Nothing is more important than the safety and well-being of our 
children, our students, and our loved ones.
    As the Virginia Tech community continues to recover and heal from 
last month's tragedy, the best service we can provide to the students 
and faculty and staff members of colleges and universities across this 
country is to first listen and learn. Then we must decide what 
additional role the federal government can play in better preparing 
campuses to be safe.
    We look forward to the testimony by our panel of witnesses.
    I now recognize the committee's Senior Republican, Mr. McKeon, for 
his opening remarks.
    Thank you.
                                 ______
                                 
    Mr. McKeon. Thank you, Mr. Chairman, for convening today's 
hearing.
    It has been nearly a month since the deadliest shooting in 
modern American history and, without a doubt, our Nation's most 
unthinkable instance in campus violence. Families across the 
country and the Virginia Tech community continue to grieve, and 
we always will, but in the aftermath of that dark April day, 
our challenge is to learn not only more about what occurred in 
Blacksburg but also what we can do to ensure that college 
campuses are well-equipped to handle tragedies such as this.
    A response to an event of this magnitude, as all of us 
would suspect, has been as swift as it has been broad. Local, 
State and Federal law enforcement immediately engaged both for 
the purposes of ensuring safety, but also to investigate the 
sordid details of this sad case. Virginia's governor has 
assembled a panel of experts to review every conceivable aspect 
of the campus shooting, and colleges and universities have 
begun to look inward, reexamining their own emergency response 
plans.
    Today, this committee has the opportunity to contribute to 
the national dialogue on the safety of our college campuses as 
well, and I thank our witnesses for joining us this morning to 
help us to do just that.
    At the outset, I believe it is important to note that this 
is not a Republican or a Democrat issue. Rather, this is an 
issue in which we all share feelings of anger, sorrow and, yes, 
responsibility, not responsibility for what occurred in 
Blacksburg on April 16th--the responsibility for that day's 
events lies squarely with a single gunman, who acted selfishly, 
brutally and without regard for human life--but responsibility 
to join with other stakeholders to trigger a national 
discussion on how to improve response efforts for the next time 
an emergency situation occurs on a college campus.
    The goal of today's hearing is straightforward, to listen 
and to learn. As we organized our panel of witnesses and our 
agenda, we made certain that our objective was not to advocate 
or to dismiss a particular policy change or a piece of 
legislation. Rather, we have assembled four men and women who 
can share their unique perspectives on how to deal with 
unexpected tragedies on college campuses. For example, I will 
be eager to hear their thoughts on ways various departments 
within institutions have coordinated an immediate response to 
an on-campus incident.
    What are campuses doing with regard to emergency 
notification systems? What research is being done in the area 
of threat assessments, and how have various campuses dealt with 
unexpected tragedies?
    In short, we are here to discuss with our panel the 
question of whether there are certain standards or best 
practices that could be followed for bolstering security and 
emergency notification on campus. Because a campus security 
office can take many forms and because campuses can vary from 
small, one-building colleges to colleges that sprawl several 
acres, to colleges that are in the middle of a bustling city, 
trying to develop suggestions for standards that will fit all 
different types of campuses is difficult. However, it is the 
responsibility of all stakeholders to take on this challenge, 
and this committee is no exception.
    Mr. Chairman, with that in mind, I will look forward to our 
witnesses' testimony.
    [The prepared statement of Mr. McKeon follows:]

Prepared Statement of Hon. Howard P. ``Buck'' McKeon, Senior Republican 
                Member, Committee on Education and Labor

    Thank you, Mr. Chairman, for convening today's hearing.
    It's been nearly a month since the deadliest shooting in modern 
American history and, without a doubt, our nation's most unthinkable 
instance of campus violence. Families across the country and the 
Virginia Tech community continue to grieve, and we always will. But in 
the aftermath of that dark April day, our challenge is to learn not 
only more about what occurred in Blacksburg, but also what we can do to 
ensure college campuses are well-equipped to handle tragedies such as 
this.
    The response to an event of this magnitude, as all of us would 
suspect, has been as swift as it has been broad. Local, state, and 
federal law enforcement immediately engaged--both for the purposes of 
ensuring safety, but also to investigate the sordid details of this sad 
case. Virginia's Governor has assembled a panel of experts to review 
every conceivable aspect of the campus shooting. And colleges and 
universities have begun to look inward, re-examining their own 
emergency response plans.
    Today, this Committee has the opportunity to contribute to the 
national dialogue on the safety of our college campuses as well, and I 
thank our witnesses for joining us this morning to help us do just 
that. At the outset, I believe it's important to note that this is not 
a ``Republican'' or ``Democrat'' issue. Rather, this is an issue in 
which we all share feelings of anger, sorrow, and--yes--responsibility. 
Not responsibility for what occurred in Blacksburg on April 16th, as 
the responsibility for that day's events lies squarely with a single 
gunman, who acted selfishly, brutally, and without regard for human 
life--but responsibility to join with other stakeholders to trigger a 
national discussion on how to improve response efforts for the next 
time an emergency situation occurs on a college campus.
    The goal of today's hearing is straightforward: to listen and to 
learn. As we organized our panel of witnesses and our agenda, we made 
certain that our objective was not to advocate or dismiss a particular 
policy change or piece of legislation. Rather, we have assembled four 
men and women who can share their unique perspectives on how to deal 
with unexpected tragedies on college campuses. For example, I'll be 
eager to hear their thoughts on ways various departments within 
institutions have coordinated in immediate response to an on-campus 
incident; what campuses are doing with regard to emergency notification 
systems; what research is being done in the area of threat assessments; 
and how various campuses have dealt with unexpected tragedies.
    In short, we're here to discuss with our panel the question of 
whether there are certain standards--or ``best practices ``--that could 
be followed for bolstering security and emergency notification on 
campus. Because a campus security office can take many forms and 
because campuses can vary from small, one-building colleges, to 
colleges that sprawl several acres, to colleges that are in the middle 
of a bustling city, trying to develop suggestions for standards that 
will fit all different types of campuses is difficult. However, it is 
the responsibility of all stakeholders to take on this challenge--and 
this Committee is no exception.
    Mr. Chairman, with that in mind, I look forward to our witnesses' 
testimony.
                                 ______
                                 
    Chairman Miller. Thank you very much.
    I want to welcome all of the members of the panel. Thank 
you for agreeing to give us your time and the benefits of your 
experience and your knowledge.
    I would like to turn to Mr. Scott for the purpose of 
introducing Dr. Dewey Cornell.
    Mr. Scott. Thank you, Mr. Chairman, and thank you for 
allowing me to introduce Dr. Cornell from the University of 
Virginia's Curry School of Education. I have worked closely 
with Dr. Cornell on many issues over the years, and I am 
pleased to see him testifying here today.
    His testimony in this hearing is, unfortunately, relevant 
today in the wake of the shootings at Virginia Tech on April 
16th. Virginia Tech held its commencement ceremony this past 
weekend, and although the physical and emotional scars from 
this horrific day will continue to affect students and faculty 
for a long time to come, I am hopeful that this is the first 
step in restoring a sense of normalcy and healing to the 
campus.
    Dr. Cornell is a forensic clinical psychologist and a 
professor of education at the Curry School. He is also a 
director of the Virginia Youth Violence Project and a faculty 
associate at the Institute of Law, Psychiatry and Public 
Policy. He has 24 years of experience in evaluating juvenile 
and adult offenders, including in the area of school shootings. 
He has testified in legal proceedings, has consulted with the 
FBI and has authored over 100 publications in psychology and 
education on these matters.
    From his work, Dr. Cornell has developed threat assessment 
guidelines that are being used throughout Virginia as well as 
in other States, and these guidelines are meant to assess the 
actual threat of incidences in schools in order to help schools 
evaluate the severity of threats and respond in a targeted and 
appropriate manner.
    He is widely respected in his field, and I would like to 
thank him for traveling here today to provide testimony about 
his work on school violence, and I look forward to hearing his 
recommendations, and again, I thank Dr. Cornell.
    I thank you, Chairman Miller, for the opportunity to 
introduce him today.
    Chairman Miller. Thank you.
    Now, for the purposes of introducing Dr. Luanne Kennedy, we 
have Mr. McKeon.
    Mr. McKeon. Thank you, Mr. Chairman.
    Dr. Luanne Kennedy served as Provost and Vice President of 
Academic Affairs at California State University Northridge from 
1993 until 2003. As Provost and Vice President, she was the 
primary advisor to the president on all matters affecting 
academic programming and was responsible for the campus in the 
absence of the president.
    When an earthquake struck Northridge, California in January 
1994, Dr. Kennedy, the only senior administrator on campus that 
weekend, guided the university through the early hours of the 
disaster. The earthquake was only the second to strike directly 
beneath an urban area since 1933, and it produced the strongest 
ground motions ever instrumentally recorded in North America. 
In those initial days, Dr. Kennedy accurately estimated the 
number of emergency trailers needed to house the campus. She 
was a forceful leader on campus in the weeks and months that 
followed. That is when I first met her, and it was a wonderful 
experience to see the inspirational leadership that she 
provided at that time.
    Before joining CSU Northridge, Dr. Kennedy served as 
Associate Provost at Baruch College in the City University of 
New York system and as Vice President for Academic Affairs at 
Kean University of New Jersey. She also has served on numerous 
community organizations and boards, including the regional and 
corporate boards of the United Way of Los Angeles.
    Mr. Chairman, it is my privilege to welcome Dr. Kennedy 
this morning, and I look forward to hearing her perspective on 
campus safety and emergency preparedness.
    Chairman Miller. Thank you very much.
    I have the honor of introducing Dr. Jan Walbert. Dr. 
Walbert has served on various senior student affairs positions 
at Arcadia University for 18 years. Currently, Dr. Walbert is 
the Vice President of Student Affairs as well as President of 
the National Association for Student Personnel Administrators, 
the umbrella organization for Student Affairs Administrators, 
representing over 11,000 members at 1,400 campuses. NASPA 
members serve in a variety of functions and roles, including 
the Vice President and Dean for Student Life as well as 
professionals, working with housing and residence life, student 
unions, student activities, counseling, career development, 
orientation, enrollment management, racial and ethnic minority 
support services, and retention and assessment.
    Thank you very much for joining us, and we look forward to 
your testimony. That is a pretty hefty portfolio there.
    Congressman Holt wanted to be here to introduce Chief 
Steven Healy, but he has been detained. So, if I might, I will 
go ahead and just introduce Chief Healy to the committee.
    Chief Healy currently serves as Director of Public Safety 
at Princeton University. He is also the President of the 
International Association of Campus Law Enforcement 
Administrators, and it is in that capacity that Chief Healy 
will be testifying before us today. Previously, Chief Healy 
testified before the Homeland Security and Governmental Affairs 
Committee in April of this year.
    Welcome to the committee. I think, Chief, we are going to 
start with you.
    The lighting system in the committee is such that when you 
start testifying, the green light will go on, and then, 
hopefully, an orange light will go on and warn you that you 
have about a minute to wrap it up, and then the red light means 
that you will be out of time, but we do allow you to finish a 
coherent sentence and finish a thought and all of the rest of 
that. So be comfortable in testifying in the manner that you 
are most comfortable doing so.

STATEMENT OF STEVEN HEALY, PRESIDENT, INTERNATIONAL ASSOCIATION 
    OF CAMPUS LAW ENFORCEMENT ADMINISTRATORS, AND DIRECTOR, 
       DEPARTMENT OF PUBLIC SAFETY, PRINCETON UNIVERSITY

    Mr. Healy. Yes, sir. I appreciate that.
    Chairman Miller, Ranking Member McKeon, members of the 
committee, my name is Steven Healy, and I am the Director of 
Public Safety at Princeton University and am the President of 
the International Association of Campus Law Enforcement 
Administrators. IACLEA represents the campus public safety 
executives at 1,100 institutions of higher education and over 
1,800 individual members.
    The tragic events at Virginia Tech nearly 1 month ago today 
heightened the importance of our continuous efforts to enhance 
campus public safety and to protect students, faculty, staff, 
and visitors to our campus. I thank and commend the committee 
for having this very important hearing.
    This morning, I want to address several issues related to 
campus public safety best practices, including mass 
communication systems and other efforts that we have underway 
to strengthen communications, initiatives to continually raise 
the level of professionalism within the campus public safety 
community, and ongoing efforts to meet Federal crime reporting 
guidelines.
    First, I want to assure this committee and the American 
people that vigorous efforts are underway to enhance safety and 
security on our Nation's campuses. With our partners such as 
the International Association of the Chiefs of Police, College 
and University Policing Section and several Federal agencies, 
we are committed to protecting our campuses and maintaining the 
open environment that is essential to the higher education 
experience.
    As you know, campuses are not immune from threats. We deal 
with a number of health and safety risks, including high-risk 
drinking, drug abuse, mental illness, suicide, and various 
forms of violence against women, including sexual assault. 
Campus public safety officers are on the front lines, along 
with many other campus administrators, preventing, intervening 
and responding to these situations. While there are no one-
size-fits-all solutions, ensuring that campus public safety 
agencies meet high professional standards contributes to 
effective prevention and response.
    IACLEA recognizes that adherence to the highest 
professional standards is crucial to our effectiveness. Thanks 
to the Justice Department Office of Community-oriented Policing 
Services, IACLEA has established an accreditation program based 
on standards written by the Commission on Accreditation For Law 
Enforcement Agencies. Our program requires participating 
agencies to conduct an in-depth self-assessment and then to 
meet over 225 standards, many of which are specific to the 
campus environment. Accreditation sets a strong foundation as 
agencies plan for other important aspects of campus safety, 
such as communications, which must be dealt with in a holistic 
manner.
    First, we must communicate within our communities during 
critical incidents to provide detailed instructions, control 
rumors and maintain order. Second, we must also ensure 
effective communications between all first responders. 
Effective emergency notification systems must have the 
appropriate capacity, security, redundancy, and reliability to 
reach the community in multiple modes. These systems must use 
voice messages, text messages, e-mails in addition to other 
systems such as sirens and horns. No one method is sufficient. 
We must combine all of these methods to ensure that we reach 
the community. Effective communication and interoperability 
between first responders is also paramount, and IACLEA has 
received significant funding from the Department of Homeland 
Security to enhance those responses.
    In addition to ongoing challenges, colleges and 
universities must also comply with the Federal Crime Awareness 
and Campus Security Act of 1990, also known as the Clery Act. 
The Clery Act impacts many areas of campus operations, so it is 
important for campuses to take a collaborative approach to 
compliance. To further this collaborative model, IACLEA has 
joined with Security on Campus, an organization that works to 
improve campus safety to offer a series of Clery Act training 
sessions around the country. While many of these efforts have 
enhanced campus public safety, it is important that we all 
recognize that there is much more to do, and I offer the 
following recommendations.
    First is the need for a National Center For Campus Public 
Safety. The need for a National Center For Campus Public Safety 
was a consensus recommendation from a Justice Department-
sponsored summit held in 2004. The National Center would 
support research, information-sharing, best in model practices, 
and strategic planning to enhance safety and security.
    In conclusion, IACLEA has worked for the past 49 years to 
advance campus public safety and to support the more than 
30,000 campus public safety officers serving our colleges and 
universities. We firmly believe that campus public safety is a 
shared responsibility that requires efforts from us all. Thank 
you for your commitment to this important issue. Your continued 
support is vital to our success and to our ability to maintain 
our campuses as safe places. I appreciate the opportunity to 
participate in this important dialogue, and I look forward to 
your questions.
    Chairman Miller. Thank you very much.
    [The statement of Mr. Healy follows:]

    Prepared Statement of Steven J. Healy, President, International 
     Association of Campus Law Enforcement Administrators (IACLEA)

    Chairman Miller, Ranking Member McKeon, Members of the Committee. 
My name is Steven Healy and I am the director of public safety at 
Princeton University. I am also the President of the International 
Association of Campus Law Enforcement Administrators (IACLEA), an 
association that represents the campus public safety executives at 
1,100 institutions of higher education and over 1,800 individual 
members.
    The tragic events at Virginia Tech nearly one month ago have 
heightened the importance of our continuous efforts to enhance campus 
public safety at more than 4,000 institutions of higher education 
serving nearly 16 million students and millions more faculty, staff and 
visitors. I thank and commend the Committee for holding this important 
hearing on campus safety best practices.
    I want to address several issues related to campus public safety 
best practices, including on-going efforts to strengthen 
communications, initiatives to continually raise the level of 
professionalism within the campus public safety community and efforts 
to comply with federal crime reporting requirements.
    Before I outline these strategies, I want to assure this Committee 
and the American people that vigorous efforts have been and continue to 
be underway to enhance safety and security on our nation's campuses. 
With our partners, such as the International Association of Chiefs of 
Police, College and University Policing Section (IACP) and several 
federal agencies, we are continuously vigilant and committed to 
protecting our students and other community members while 
simultaneously maintaining the open environment that is the centerpiece 
of the American higher education experience.
    It's important to understand the complex nature of our communities 
and the evolving responsibilities of campus public safety.
    Campuses are not immune from safety threats and other dangers 
facing our society. We must be realistic about these threats and act 
proactively to prevent and respond to the inevitable crises and 
incidents that will arise. Campuses deal with a number of critical 
challenges today, including problems with high risk drinking, drug 
abuse, mental illness, including suicide, and various forms of violence 
against women, including sexual assault. Campus public safety officers 
are on the front lines, along with other campus administrators, as 
first responders to many of these situations. As we work to develop 
comprehensive, coordinated approaches to these, and other problems, 
there is a growing convergence among fields about the best way to 
prepare for and address complex health and safety issues on college 
campuses. Rather than recommending one-size-fits-all solutions, both 
alcohol, other drug and violence (AODV) prevention programs on the one 
hand, and crisis planning models on the other, emphasize the need for 
creating comprehensive plans that are tailored to the culture, setting, 
and physical environment of each campus.
    Essential steps in creating these plans include:
    <bullet> Working in partnerships with multiple campus and community 
stakeholders;
    <bullet> Conducting an analysis of local problems, hazards, 
structures, assets, and resources; and,
    <bullet> Consulting the research literature for and creating 
evidence-based practices.
    One way to ensure our colleges and universities are able to 
prevent, prepare for, respond to, and recover from critical incidents 
is by providing adequate resources for our campus public safety 
agencies. These resources must include, as a foundation, the best 
possible training available and support for adherence to the highest 
professional standards.
Accreditation
    IACLEA recognizes that training and professional standards are 
crucial to our success in crime prevention and control and critical 
incident response. Several years ago, we embarked upon a process to 
establish an accreditation program for campus public safety agencies.
    Thanks to our partners in the U.S. Department of Justice, Office of 
Community Oriented Policing Services (COPS), IACLEA was provided seed 
monies to begin developing this program. Based on the standards 
previously established by the Commission on Accreditation of Law 
Enforcement Agencies (CALEA), we now have a program that supports our 
commitment to the professionalization of campus public safety.
    Our Accreditation program requires participating agencies to 
conduct an in-depth self-assessment of their policies and procedures 
and then take significant steps to meet more than 150 campus-specific 
standards. Some of those standards specifically address critical 
incident response and we believe that the Accreditation process, in and 
of itself, enhances an agency's response to all-hazards (see attached 
article). IACLEA began accepting applications for the program last year 
and we are confident that many colleges and universities will support 
their campus public safety agencies seeking Accreditation.
    Accreditation sets a strong foundation so agencies are able to plan 
for other important aspects of campus safety such as communications. 
Communicating for effective campus public safety involves several 
inter-connecting spheres of communication and must be approached in a 
holistic manner.
Communications
    First and foremost, we must communicate within our campus 
communities immediately following the discovery of a critical incident 
so we are able to provide detailed instructions, maintain order, and 
control rumors. Secondly, we must communicate with those responsible 
for managing and resolving a critical incident: the emergency first 
responders. For the former, our strategy must consider the unique 
characteristics of campuses and the fact that we are open, vibrant, 
active communities, with people always on the move, engaging in 
academic, social and other activities.
    Of particular interest is the need for mass, emergency notification 
systems that have appropriate capacity, security, redundancy and 
reliance to reach our community members using multiple forms of 
communication that do not allow for a single point of failure. These 
systems must be able to reach community members with voice messages, 
text messages and emails, in addition to other systems that may already 
be in place, such as web sites, horns, or sirens. No single method of 
communication is sufficient.
    Secondly, we must communicate effectively with our emergency 
response partners. This type of communication requires 
interoperability--that is, equipment, protocols and governance 
structures that allow agencies to speak to each other in real time. 
Funding provided by Congress through the U.S. Department of Homeland 
Security and the U.S. Department of Justice aims to enhance 
interoperability at several levels, yet colleges and universities are 
not explicitly mentioned as potential grant recipients for this 
funding. Specifically including campus public safety agencies in 
existing federal and state programs of emergency preparedness and law 
enforcement response would address the varying capabilities of campuses 
to talk to their counterparts in the larger community during critical 
incidents.
    While interoperable equipment is important, so is the need to have 
established systems, protocols, agreements, and joint training programs 
that enable multiple agencies to respond in a rapid, effective, 
seamless fashion. With the support of a U.S. Department of Homeland 
Security grant, IACLEA created a ``Guide to Strengthening 
Communications between Campus Public Safety Departments and Federal-
State-Local Emergency Response Agencies''. This Guide recommends that 
campuses do the following:
    <bullet> Assess local responsibilities and resources available;
    <bullet> Determine the state of local emergency communications 
equipment and training and make recommendations for improvements;
    <bullet> Develop and maintain a written Emergency Communication 
Plan that is consistent with federal NIMS/ICS requirements;
    <bullet> Develop mutual aid agreements and/or memoranda of 
understanding in cooperation with local law enforcement and other 
emergency response agencies;
    <bullet> Train and conduct exercises to validate, enhance, or 
improve all procedures resulting from developed mutual aid agreements; 
and,
    <bullet> Develop and improve communications skills and networks.
    To support these goals, IACLEA, with funding from DHS, developed a 
critical incident management course that involves simulation based 
training. In its first year of operation, the program has trained more 
than 700 campus public safety officers and their emergency response 
partners.
    In addition to the on-going challenges of crime prevention, crime 
control, and critical incident response, colleges and universities must 
ensure they comply with Federal crime reporting requirements, 
specifically, the Crime Awareness and Campus Security Act of 1990, 
known as the Clery Act.
Clery Act Compliance
    The Act requires colleges and universities that receive federal 
Title IV funding to disclose campus crime statistics and crime 
prevention information to the public and the Federal government. IACLEA 
has served as a resource to the U.S. Department of Education by 
providing feedback on changes to the Clery Act and training for our 
members. IACLEA has co-sponsored a number of Clery Act training and 
compliance workshops and seminars at our Annual Conference, Regional 
Conferences and other venues.
    The Jeanne Clery Act impacts many areas of campus operations and 
administration; therefore, it is important for colleges and 
universities to take a collaborative approach to compliance. To further 
the collaborative model, this year, Security on Campus, an organization 
devoted to improving campus safety, teamed with IACLEA and the IACP 
under grant funding from the U.S. Departments of Justice and Education, 
to offer a series of Clery Act compliance training sessions across the 
U.S. IACLEA is providing subject matter expert instructors for these 
courses.
    The Clery Act provides students and their families with accurate, 
complete and timely information about safety on campus, so they can 
make informed decisions about their safety and security. Our job as the 
professional association representing campus public safety is to 
provide our members with the latest training and guidance so they can 
deliver this information to students, parents and the Federal 
government. IACLEA is committed to working with our members and with 
other interested groups to promote Clery Act compliance and training in 
the future.
    IACLEA believes that a current proposal to expand the Clery Act to 
include additional reporting requirements under a broad definition of 
``campus law enforcement emergencies,'' while well intended, is far too 
subjective and contains a number of problematic requirements. We have 
submitted alternative language for this bill and stand ready to assist 
the U.S. Congress in enhancing campus public safety.
Summary
    Providing adequate safety and security for our nation's campuses is 
a critical responsibility that requires action by all of us. Campuses 
are diverse settings, and there is no one-size-fits-all initiative that 
will work at every institution. Each campus must undertake a 
comprehensive planning process involving multiple campus and community 
constituencies, working together to analyze their local problems and 
assets and developing plans that use multiple, coordinated policies, 
protocols, and programs. IACLEA has developed several resources that 
can significantly contribute to these efforts, but we can do more with 
additional support from the Federal government.
    While these existing efforts by IACLEA and other professional 
associations and our partners in the Federal government lay important 
groundwork, they should be supplemented to ensure they are:
    <bullet> Expanded to all campuses;
    <bullet> Include more partners on campus, as well as local and 
state partners;
    <bullet> Supported with funding for appropriate equipment and other 
infrastructure development;
    <bullet> Informed by training, technical assistance, and up-to-date 
information; and,
    <bullet> Practiced regularly on all campuses.
Recommendations
    While IACLEA currently reaches nearly half the traditional higher 
education institutions, we need to ensure all colleges and universities 
are committed to and have access to high quality information, best 
practices, and training. Greater Federal, state and local support for 
campus public safety agencies--both at public or private institutions--
would provide additional opportunities.
    First among my recommendations is the need to establish a National 
Center for Campus Public Safety. The need for a National Center was a 
consensus recommendation from a Summit held in 2004. The National 
Center would support research, information sharing, best and model 
practices, and strategic planning to enhance campus public safety.
    For example, in the aftermath of the horrific events at Virginia 
Tech on April 16, many campuses began examining mass notification 
systems. Unfortunately, there was little information available to help 
guide those decisions. A National Center would fill that gap by 
brokering innovative, forward-looking research for campus public safety 
needs. The National Center would also aggressively promote the adoption 
of professional standards, like those in the IACLEA Accreditation 
Program. The Center would be an invaluable resource for all who have a 
stake in campus public safety and thus the success of our colleges and 
universities.
    Secondly, we are working with our partners in the FBI, the U.S. 
Secret Service, and the Department of Education to expand previous 
studies of middle and high school aged shooters, to take a deliberate, 
campus-focused look at rampage shooting incidents at colleges and 
universities. This examination and the lessons learned from it will 
surely result in the identification of best practices. I would like to 
thank the FBI Office of Law Enforcement Coordination for facilitating 
this important initiative.
    Finally, IACLEA will work with the national associations of higher 
education and other partners to adopt a four-point risk management 
strategy that we believe may help us prevent future tragedies:
    <bullet> Aggressively promote the use of IACLEA's Threat & Risk 
Assessment tool, developed with federal DHS grant support, to help 
campuses identify and prioritize vulnerabilities tied to known and 
potential threats. For this, IACLEA will need additional resources from 
DHS beyond what our current grant allows.
    <bullet> Collaborate with others to create behavioral threat 
assessment models. These models should be centered on multi-
disciplinary teams, comprised of student affairs professionals, 
counselors and psychologists, substance abuse professionals, and campus 
public safety administrators working together.
    <bullet> Fast track our efforts to develop a comprehensive tool to 
assist campuses in evaluating their physical security environments. 
This tool will help campuses make sound decisions about security 
technology and mass notification systems.
    <bullet> Ensure that rapid response training is available to 
campuses that need it. The Bureau of Justice Assistance has pledged 
their help in this important endeavor.
    We believe this four-point approach addresses potential gaps that 
may exist on some campuses and establishes a framework to 
systematically address other safety and security challenges on our 
campuses.
Conclusion
    For the past 49 years, IACLEA has worked to advance campus public 
safety. We understand the vital role our colleges and universities play 
in ensuring democracy throughout the world. We will continue to be an 
advocate for the more than 30,000 public safety officers serving over 
4,000 unique communities. Advancing campus public safety is a shared 
responsibility and requires efforts from all of us. We must all work to 
ensure we eliminate the fragmentation and isolation of campus safety 
initiatives and adopt only those activities that are founded in 
evidence-based best practices.
    Thank you for your commitment to this important issue. I would also 
like to thank DHS, the FBI, the Justice Department and the Department 
of Education for their support, along with the many state and local 
agencies, who are our partners. These partnerships are vital to 
fulfilling our promise to ensure that every campus community remains 
safe and open.
    I appreciate the opportunity to contribute to this important and 
ongoing dialogue.

                               Attachment

        Accreditation Standards and Critical Incident Management

    Recent occurrences in the United States and Canada have underscored 
the potential for catastrophic events on college and university 
campuses. Whether man-made, natural or technological in nature, 
catastrophic events present unique challenges to those responsible for 
the well-being of students, faculty, staff and visitors. Events such as 
Hurricane Katrina, in the fall of 2005, illustrate the potential for 
catastrophes to reach far beyond geopolitical boundaries and render 
great swaths of infrastructure inoperable. The tragic shootings at 
Dawson College in Montreal and more recently, at Virginia Tech, 
demonstrate the sudden, unpredictable, and devastating nature of some 
criminal acts. These events point out the need for seamless emergency 
operations procedures at institutional, municipal, regional, state, and 
national levels. Effective, large-scale emergency operations can only 
occur after careful consideration and planning have taken place at each 
level.
    IACLEA's efforts to launch an accreditation program began in 1999. 
IACLEA conducted a member needs assessment survey, which identified the 
development of a campus public safety agency accreditation process as a 
priority. The Association created an Accreditation Committee in 2001 
and charged it with reviewing existing standards and developing an 
accreditation process. In 2003, IACLEA sought and was awarded a grant 
from the Office of Community Oriented Policing Services (COPS) within 
the U. S. Department of Justice. These funds were designed to defray 
the start-up costs of creating and implementing the accreditation 
program. A second COPS grant was secured in 2005 to continue the 
support of the program through the pilot program phase. The IACLEA 
Accreditation Program was officially launched in February 2006.
    The Accreditation Committee, recently reformulated as a Commission, 
is the Association's governing body for the IACLEA Accreditation 
Program. The Commission consists of twelve voluntary members, nine of 
which are IACLEA members. Particular care is taken to ensure that the 
Commission membership is representative of the diversity of the 
Association, including representatives of both two- and four-year 
institutions, sworn and non-sworn agencies, and public and private 
institutions. Additional members are drawn from allied associations, 
including the National Association of College and University Business 
Officers, the National Association of Student Personnel Administrators, 
and the American Council on Education.
    An often cited benefit of the accreditation process is that the 
standards provide timely and topical guidance in the ``best practices'' 
of public safety management and operations. The standards address areas 
such as policy development, selection of personnel, training, 
discipline, use of force, patrol and traffic operations, 
communications, record keeping, property and evidence handling, 
transportation and detention of individuals, and emergency response 
planning.
    Generally, the standards identify ``what'' an agency must do, not 
``how'' to do it. The majority of standards require a ``written 
directive'' as a proof of compliance to affirm the agency's commitment 
to the standard. Generally, any document that is binding on agency 
personnel and serves to direct, guide, or govern their activities may 
be used to meet the written directive requirement. The following 
standard, addressing emergency response planning, requires a written 
plan:
    46.1.2 The agency has a written ``All Hazard'' plan for responding 
to critical incidents such as natural and man-made disasters, civil 
disturbances, mass arrests, bomb threats, hostage/barricaded person 
situations, acts of terrorism, and other unusual incidents. The plan 
will follow standard Incident Command System (ICS) protocols, which 
include functional provisions for: command, operations, planning, 
logistics, and finance/administration.\1\
---------------------------------------------------------------------------
    \1\ CALEA, Standards for Law Enforcement Agencies, 5th Edition, 
Fairfax, VA
---------------------------------------------------------------------------
    Subsequent standards provide more specific direction concerning the 
development of a comprehensive and effective emergency operations plan. 
It is noted that the ``command function'' should address issues such as 
establishing a command post, mobilizing personnel, preparing a staging 
area, requesting outside assistance, and maintaining media relations. 
The ``operations function'' should attend to establishing perimeters, 
conducting evacuations, controlling traffic, and providing on-scene 
security. The ``planning function'' should address preparing an 
incident action plan, collecting and disseminating intelligence, and 
planning for demobilization, while the ``logistics function'' should 
concentrate on communications, transportation, medical support, and 
equipment and supplies. The standards also require the periodic 
inspection of the agency's emergency response equipment to ensure its 
operational readiness.
    Not only does the IACLEA Accreditation Program promote the highest 
professional standards for campus law enforcement and protective 
services, but it is committed to enhancing critical incident management 
through the creation of a web-based Campus Preparedness Resource 
Center. Funded under a federal Department of Homeland Security grant, 
the goals of the web based Resource Center are to develop and 
disseminate resources to strengthen the capacity of campus public 
safety departments to plan for potential WMD/terrorist threats, to 
encourage participation in IACLEA's Incident Command System training 
program, and to disseminate a strategic vision for campus public safety 
training. Among the online resources available to the members of the 
campus public safety profession is a ``Model Campus Emergency 
Operations Plan Guidelines'' resource, which offers a sample EOP, 
emergency support functions and incident specific appendices and other 
sample documents that may be edited and adapted for use at any 
institution. This guide can provide a framework to develop an effective 
and compliant ``All Hazard'' plan.
                                 ______
                                 
    Chairman Miller. Dr. Kennedy.

STATEMENT OF LOUANNE KENNEDY, FORMER PROVOST, CALIFORNIA STATE 
                    UNIVERSITY AT NORTHRIDGE

    Ms. Kennedy. Chairman Miller, Ranking Member McKeon and 
members of the committee, on behalf of the California State 
University, I want to thank you for inviting me to discuss 
campus emergency preparedness and response. I am going to focus 
on the events of the early days of the Northridge earthquake 
and also on the school's recovery from the event and the 
changes that we made to emergency preparedness as a result of 
that event. First, I would just like to say a few words about 
the CSU.
    We are the largest and most diverse 4-year university 
system in the country with 23 campuses, about 417,000 students, 
and we range from the northern area of California to the south. 
We have awarded about 2 million degrees, and we are also very 
cost-effective. Our charges average about $3,200 a year. Cal 
State Northridge is a campus now of 30,000 students on 369 
acres.
    On January 17th, 1994, the northwest area of Los Angeles, 
including our campus, was struck by a 6.7-magnitude earthquake. 
Damage to the area is estimated at around $40 billion. Our 
campus was located about a mile from the epicenter and incurred 
about $400 million in damages. The casualties from the quake 
were relatively minor given the hour of the day, 4:31 in the 
morning, and the fact that it was the Martin Luther King 
holiday and that the students were not on the campus. The 
earthquake resulted in damage to 107 of the 117 buildings. 
Seven of those buildings were totally destroyed.
    For almost a decade, the campus was engaged in teaching and 
learning activities while simultaneously managing the recovery. 
We built a temporary campus, coordinated the relocation of 
classes and offices and worked closely with Federal and State 
agencies and construction companies, and we opened 1 month 
later, scheduling 5,000 classes in 400 trailers and 4 Mylark 
10,000-square-foot domes. I would like to just talk for a 
minute about the first day.
    We had absolutely no information about what had happened to 
us beyond a radio station's announcing that the earthquake was 
in Northridge. What we were able to see, though, was that the 
science buildings were in flames, that the structures had 
separated from their main cores. We had no phones, no food, no 
water, no sanitary facilities, and no safe structures. We had 
hundreds of people coming to the campus from the outlying areas 
because we were a place that people came to. Our first contact 
was with the emergency response unit of the CSU. This contact 
was by walkie-talkie. We also had one public phone that worked, 
and we were in search of quarters for quite some time.
    The two things we focused on were safety, to make sure that 
all of the buildings--that we had gone into all of the 
buildings to make sure no one was inside. This was a difficult 
task. Since the freeways were down, we had only one person from 
facilities, three public safety people, two people from student 
affairs, and myself, because we lived on campus. So I had just 
moved there from New York and was living in one of the dorms at 
the time of the earthquake.
    Our first task--once we had established safety and there 
were no students in the buildings and we had everyone on the 
fields in front of the public safety office, we then began to 
photograph the entire campus. To continue to work on safety, 
the chancellor's office sent us staff from other campuses and 
made the decision that the first thing that had to happen was 
we had to have telephones established in order that anyone who 
would call the campus would reach a live person, and we 
produced a common form, telling them updates on a daily basis. 
We worked out of two army tents that had been provided for us.
    The biggest difficulty that came was that we were 
unfamiliar with the number of aftershocks that would occur. We 
built a crisis management team out of the individuals who were 
present. No matter what their titles or previous positions had 
been, if they could man the phones, if they could operate in 
any way, if they felt safe enough to go into buildings with 
public safety people, we sent them in.
    By the end of day 5, though, we determined that a temporary 
campus would have to be built because there were 3,000 
aftershocks in those early weeks, and buildings that we would 
claim would be on line on day 1, on day 3, would be off or 
sometimes between 10:00 and 4:00. With anyone who came onto the 
campus, we held briefing meetings at 10:00 a.m. and 4:00 p.m. 
We also prepared online telephone reports from student affairs, 
academic affairs and administrative services so that our staff 
and students could reach--even if they called through the 
night, they would be able to reach some update for the day that 
would talk about opening. Our message was that we would open. 
We were not sure when, and we were not sure in what structures. 
As administrators, we also agreed that we would be the last to 
occupy permanent space and would not move out of our dorms and 
trailers until every student had classrooms and every faculty 
member had an office, and we kept that promise, and for the 
next 8 years, the president and all of the senior 
administrative officers worked out of these spaces. What I want 
to talk about now is what we learned from that.
    We did not have access to our emergency planning documents, 
obviously, on the morning of the earthquake, and I must admit, 
as the administrator in charge, it was sort of the last thing 
on my mind. I think, in the moments like this, you think about 
safety. You think about letting people know things, and you 
want water, toilets and other objects like that; food would 
have been helpful, too. We have now developed a detailed 
emergency operations plan that anticipates and does practice, 
mock events for different kinds of threats, both natural, 
earthquakes, fire, flooding, hazardous materials, landslides, 
windstorms, utility outages, and those that are caused by 
accidental or intentional acts--a national defense emergency, a 
terrorist attack, aircraft bombs. We have a special plan for 
the avian flu, acts of violence, a shooting attack or a 
disturbance by criminal or insane individuals. This plan is 
updated and reviewed annually, and the university regularly 
conducts training and exercises.
    Chairman Miller. Dr. Kennedy, I would ask if you could wrap 
up your testimony.
    Ms. Kennedy. Okay. Sure.
    Chairman Miller. Thank you.
    Ms. Kennedy. We have a functioning emergency broadcast 
system on the main campus; we have redundancy in terms of the 
emergency operations plans; we have a mobile unit and several 
on-campus structures, and we recognize, however, that given our 
own experience with this that it is almost impossible to plan 
for every single event, but we have built into our activities 
and our planning and our training both--we had former FEMA 
Director James Lee Witt conduct vulnerability and disaster 
assessments, including an active shooter scenario. We maintain 
mutual aid agreements with local and state public agencies. 
Unpredictability is inherent in disasters, and planning for 
such events is a real challenge.
    Thank you very much.
    Chairman Miller. Thank you.
    [The statement of Ms. Kennedy follows:]

Prepared Statement of Louanne Kennedy, Ph.D., Emeritus Provost and Vice 
   President for Academic Affairs CSU, Northridge, California State 
                           University System

Introduction
    Chairman Miller, Ranking Member McKeon, and members of the 
Committee, on behalf of the California State University (CSU) thank you 
for inviting me to discuss campus emergency preparedness and response. 
My testimony will focus on my experience as the Provost and Chief 
Academic Officer of California State University Northridge (CSUN) 
during the 1994 Northridge earthquake, the school's recovery from that 
event, and the changes made to campus emergency response planning as a 
result of the experience. But first, a few words about the CSU.
The California State University
    Few, if any, university systems match the scope of the CSU. The CSU 
is the largest and most diverse four-year university system in the 
country, with 23 campuses, approximately 417,000 students and 46,000 
faculty and staff. The CSU, stretching from Humboldt in the north to 
San Diego in the south, is renowned for the quality of its teaching and 
for its job-ready graduates. Since the system's creation in 1961, it 
has awarded about two million degrees. We currently award approximately 
84,000 degrees each year. One key feature of the CSU is its 
affordability. For 2006-07, the CSU's systemwide fee for full-time 
undergraduate students is $2,520. With individual campus fees added, 
the CSU's total fees average $3,199, which is the lowest among any of 
the comparison public institutions nationwide. And while each of the 23 
CSU campuses has its own identity, with distinct student populations 
and programs, all share the same mission--to provide high-quality, 
affordable higher education to meet the changing workforce needs of the 
people of California.
    The 23 CSU campuses vary greatly in size and structure--from Cal 
Maritime's 1,000 student cadet environment, to large urban campuses, to 
more traditional mid-sized residential campus settings. Cal State 
Northridge (1958) is the intellectual, economic and cultural heart of 
the San Fernando Valley. One of California's largest universities, CSUN 
each year educates more than 30,000 students and produces 6,000 highly 
skilled graduates. The university's superb academic offerings spread 
between 62 bachelor's and 50 master's degrees include teacher 
preparation and undergraduate engineering programs ranked among the 
nation's best. The university also hosts a new, on-campus ``learning 
laboratory'' high school; a unique aquatic therapy center; and 
exceptional programs in the performing arts, sciences and ethnic 
studies. Northridge is a culturally and ethnically diverse university 
focused on student-centered learning and success. Its 356-acre campus 
in suburban northern Los Angeles offers a park-like setting with on-
campus housing for 2,200 students. Students enjoy a wide range of 
support services and extracurricular activities, including more than 
200 student clubs and organizations and an intercollegiate athletic 
program with 20 teams.
The Northridge Earthquake
    On January 17, 1994 at 4:31 a.m. the northwest area of Los Angeles, 
including the campus of CSU Northridge, was struck by a 6.7 magnitude 
earthquake. Damage to the area is estimated at more than $40 billion. 
Thousands of aftershocks continued to devastate structures for weeks 
after the major thrust.
    California State University, Northridge located about a mile from 
the epicenter incurred more than $400 million in damages. Overall 
casualties from the quake were relatively minimal because of the time 
of day. The campus was closed for break and January 17 was the Martin 
Luther King holiday. At the time of the disaster, CSUN had 25,000 
students and three thousand faculty and staff working in 117 buildings 
on 356 acres. The earthquake resulted in damage to 107 of these 
structures, seven of which required demolition. For almost a decade, 
the campus was engaged in teaching and learning activities while 
simultaneously managing the process of reconstruction.
    The Chancellor's office Emergency Response Unit reached us by 
walkie-talkie within a few hours of the event to offer assistance. On 
the morning of January 17, there were very few public safety officers, 
one Facilities staff, and a few campus and community members on campus. 
We asked for additional public safety and facilities' staffs to check 
each of the buildings to make certain no persons were trapped in any 
structures. The chancellor's office was very helpful in providing 
additional staff from other campuses to assist us and this support 
continued through the years of recovery until the final funding sign-
off by FEMA in spring 2007.
    We built a temporary campus, coordinated the relocation of classes 
and offices and worked closely with construction companies and federal 
and state agencies. My presentation today describes the steps taken to 
reopen the campus four weeks after the earthquake on February 14, 
scheduling 5000 classes in trailers, MYLAR domes, playing fields, and 
borrowed space from local schools and universities. We had no library, 
no science and engineering labs, no instruments for music or materials 
for art classes--or the operating systems to access student records and 
business processes critical to managing a university. Solutions for 
each of these missing aspects of university life were found.
    I will provide just a brief overview of the first day. We had 
imperfect information yet decisions needed to be made. One of the 
science buildings was in flames and several buildings were clearly 
dangerous since sections had separated from their main structures. 
Firefighters extinguished the fires in the science building but were 
deployed away from this fire when called to fires where lives were at 
risk. The fires reignited. Hazardous materials were exposed in two 
other damaged science buildings. We had no phones, no food, no water, 
no sanitary facilities and no safe structures. A severe limitation for 
many key staff was their inability to access roads and highways to get 
to campus. Faculty, staff and community members who were able to reach 
campus gathered on the open fields. We used those faculty and staff, 
regardless of their titles or previous roles, to begin the recovery and 
to communicate our status. While continuing to assess the structures, 
we began work to establish a communications center.
    Communications: We needed to assure our students and staff that the 
campus would reopen and classes would begin for the spring semester. 
Yet all campus buildings were closed except to the professional staff 
evaluating which buildings might be repaired and returned to use. 
Exceptions were also made for individuals required to photograph and 
record the damages. Some faculty were anxious to get into the buildings 
to personally examine the damage to their offices and labs, an anxiety 
that did not abate for some weeks. We operated in more of a ``command 
and control'' structure than is usual in campus relations. The 
administration was characterized as authoritarian by some who felt that 
democratic decision making was a critical component of campus life and 
must be maintained. We were unable to honor those views and maintain 
safety and security.
    With the help of the Chancellor's Office, CalState Dominguez Hills 
Public Safety officers, and the CalState Fullerton telecommunications 
staff, We had improved safety and operating phone connections on the 
field outside the public safety office by mid-day on January 18. This 
area became the new campus operations center. Two army tents arrived 
with the phone connections and we developed scripts for staff operating 
the phones. The aim was to make certain that anyone who called the 
campus was connected to an individual who could answer questions and 
convey as accurately as possible the status of our buildings. We 
assured all callers that the campus would reopen. We would indicate the 
status of buildings we believed could be used. These decisions were 
based on reports of structural damage. We did not yet understand the 
extent of damages that would result from the thousands of aftershocks.
    Documenting the damages is a critical activity to ensure 
reimbursement. Part of that filming included making a video ``Academic 
Aftershocks'' demonstrating the week to week and month to month 
progress over the first two years.
    Building a Team for Recovery: A Crisis Management Team was formed, 
made up of the president and senior campus officers and members of the 
faculty who were experts in planning and who knew the campus geography. 
The team held 10 a.m. and 4 p.m. briefings from each area: academic, 
student, and administrative affairs. We were able to communicate now by 
phone, established phone trees, and added these in person meetings for 
some faculty and staff directly engaged in recovery efforts. Others 
were asked not to come to campus. Taped messages were prepared 
following the last update at 4 p.m. Individuals who called through the 
night could access the latest summary information.
    By the end of day five, we determined that a temporary campus was 
the only way we could guarantee re-opening. Trying to build a schedule 
on shifting soil was impossible. We imagined covering the current flat 
parking areas with trailers, creating new parking, and acquiring 400 
trailers and four 10,000 sq. ft. MYLAR domes. These decisions 
eliminated the uncertainty created when buildings were listed as on-
line for use in the 10:00 a.m. meeting and, following aftershocks 
sometimes as high as 5.5 on the Richter scale, were then taken off the 
reopening plans at the 4:00 p.m. meetings. Classes were to begin 
February 14. Local radio stations and newspapers added to our 
communication network to get the word out to students that CSUN was 
``Not Just Back . . . Better!'' Information booths were manned at all 
entry points for the first day. Group and individual counseling was 
made available for all faculty, students and staff and loans were made 
to students who could not access their existing accounts.
    Developing a schedule and arranging on-line registration involved 
difficult and sometimes dangerous actions. With the aid of a cherry 
picker, the Dean of Libraries and Information Services entered the 
second floor window of the admissions and records area to retrieve 
student files. When she and a colleague entered the second floor, a 5.5 
aftershock hit the campus and that building in particular. The 
retrieved files were flown to CSU Fresno and installed on their 
computers. Admissions and Records staff working from their homes, in 
campus domes, and at CSU, Fresno maintained the records, produced the 
schedule and enabled students to register as though they were 
connecting to CSU Northridge. CSU system effectiveness is apparent in 
these successes.
    Radio stations were regularly announcing our status and reopening 
plans. President Clinton delivered a radio message to the campus. Vice 
President Gore arrived earlier to assess the situation. On February 14, 
twenty four-thousand students arrived for the first day of classes.
    Opening Day It was a joyful and chaotic opening. The faculty were 
highly creative in serving students in the areas where trailers were 
nonexistent or not yet operational. The nonexistent trailer category 
was the fate of the Business and Economics College. Selected for 
placement on the fields used as the Command Center, the College's 
trailers were delayed in placement. Faculty drove their cars adjacent 
to the field and placed large placards in the window announcing the car 
as the new Department Office. Other faculty used bullhorns to gather 
students for class. For example, a scene on the film has a faculty 
member shouting ``Accounting 401, Behind the Dumpster.'' Many classes 
were held outdoors, though that was forced to end when the rains came.
    All administrators agreed that we would be the last to occupy 
permanent space and would not move out of our domes and trailers until 
every faculty member had offices and student classrooms were rebuilt. 
We kept that promise. For the next eight years, academic affairs' staff 
worked in a 10,000 sq. ft. dome with neither walls nor windows. Student 
and Administrative Affairs shared an adjacent dome. The President and 
her staff worked from a trailer next to the domes. In fall 2002, the 
senior administration moved into permanent space.
Current Practices for Improving College Campus Safety
    The CSU system campuses all have detailed Emergency Operations 
Plans (EOP). A summary of the CSUN plan is just one example. Cal State 
Northridge has developed a detailed Emergency Operations Plan and 
structure that anticipates different threats, both natural 
(earthquakes, fire flooding, hazardous material's incidents, 
landslides, windstorms and utility outages) and those that are caused 
by accidental or intentional acts (national defense emergency, personal 
medical emergency, terrorist attack, aircraft crash, bomb threat, avian 
flu, acts of violence, shooting attack, or disturbance by criminal or 
insane persons). The Northridge plan is reviewed and updated annually, 
and the university regularly conducts training and exercises.
    CSUN Public Safety Department officers, who have full police 
powers, have been specially trained and armed to deal with active 
shooting incidents. CSUN also has mutual aid agreements with other law 
enforcement agencies such as the California Highway Patrol.
    The CSUN Public Safety Department regularly teams with its 
counterparts in university Student Affairs and Counseling to discuss 
and assess potentially serious student behavior problems. If warranted, 
university police conduct threat assessments designed to head off 
problems.
    The University has a functioning emergency broadcast system on the 
main campus. The system uses speakers mounted on the roofs of major 
buildings, allow voice broadcasting throughout the main campus.
    In an initiative begun after Hurricane Katrina, the University is 
currently testing another mass notification system called Connect-Ed 
that can rapidly deliver recorded voice messages (and text messages) to 
the phones and e-mail in boxes of all students, faculty and staff, 
including TTY capability for those who are deaf and hard-of-hearing.
    This year, the campus opened a new, state-of-the-art $10 million 
Public Safety/Parking Department headquarters located in the heart of 
the campus. The two-story 26,000-square-foot facility included an 
expanded Emergency Operations Center. Public Safety also maintains a 
40-foot command post trailer that can serve as a mobile EOC. Two other 
sites are also under development. Redundancy for emergency response is 
built into the development of units at different sites.
    Should a disaster occur a Campus Closure Integrated Communication 
Protocol is activated. This protocol supplements the CSUN Emergency 
Operations Plan by providing detailed guidelines for communication with 
members of the campus community when classes are cancelled and the 
campus is closed due to an emergency or other unforeseen circumstance. 
The Emergency Operations Plan provides specific guidelines on 
notifications, mobilization of the Crisis Action Team, and possible 
activation of the Emergency Operations Center (EOC).
    Currently all 23 campuses of the CSU and the Office of the 
Chancellor have developed all hazard (natural and man-made) 
preparedness plans. Each plan has addenda for a specific hazard and 
many have been in development since the mid 1990s. Initially the campus 
plans were developed using the State's Standardized Emergency 
Management System (SEMS) and then revised to comply with the federal 
mandated National Incident Management System (NIMS).
    Communications is the fundamental capability to prevent, react, 
respond and recover from an event. There is no one size or one 
technology that fits all situations. Each campus establishes its 
individual communication plan to operate for a variety of incidents/
hazards using their available technologies for the specific event 
(broadcast e-mail, websites, phones, bullhorns, sirens, etc.).
    Training occurs for all levels of CSU employees including 
Presidents, their designated back-ups and members of the emergency 
Operations Team. Routine sessions emphasize overall plans and specific 
facets of the campus plan. Crisis Communications is an area of focus in 
the CSU leadership training.
    Crisis Communications such as occurred in the Northridge 
Earthquake, Katrina and shooting and terror acts require tough 
decisions by humans with limited information available as a crisis 
unfolds. Questions that must be asked are:
    <bullet> How or can this event escalate in severity?
    <bullet> What needs to be done immediately to prevent further 
injury, death or damage to property?
    The CSU strives to respond appropriately through its actions and 
communications to its campus population, community, and for large scale 
or catastrophic events, local regional, national and international 
media and populations.
    CSU has experienced the misfortune of active shooters over the 
years and have developed specific campus plans for this type of event. 
All the events whether in the CSU or in other locations, cause us to 
re-evaluate and update the campus' overall plans.
    In spring 2001, the CSU engaged former FEMA Director James Lee Witt 
to conduct various hazard/vulnerability assessments, including an 
active shooter scenario at SFSU. We maintain active ``mutual aid'' 
agreements with local and state public safety agencies to assist when 
an event exceeds our capabilities.
Future CSU Emergency Planning
    <bullet> Continue to re-assess our active shooter and all hazard 
plans
    <bullet> Re-emphasis placed on Prevention, Response, Communications 
and Recovery from the lessons learned from the Virginia Tech University 
(VTU) event
    <bullet> Continue to exercise our plans and test both our 
capabilities and test for events beyond our abilities and work on 
shortfalls observed in our practices
    <bullet> Continue to seek funding and grants to improve our 
equipment and plan documents
    <bullet> Training sessions planned for our Presidents at the end of 
June with James Lee Witt, including crisis communications and lessons 
learned from VTU
    <bullet> Continue to work with State Office of Emergency Services 
including participating in the GAP analysis initiative to identify and 
quantify what is available and what will be needed in a catastrophic 
event
    The CSU remains vigilant in our efforts to preserve and protect 
life and property, and prepare to the best of our ability for such an 
event, to expect the unexpected, communicate our plans to the broadest 
possible audience, involve our entire campus community in improving our 
plans and continually seek to improve through routine testing and 
exercising of our plans for an event we hope will never happen.
    Unpredictability is inherent in disasters and makes planning for 
such an event a challenge.
                                 ______
                                 
    Chairman Miller. Dr. Cornell.

 STATEMENT OF DEWEY CORNELL, DIRECTOR, VIRGINIA YOUTH VIOLENCE 
      PROJECT, SCHOOL OF EDUCATION, UNIVERSITY OF VIRGINIA

    Mr. Cornell. Chairman Miller, Ranking Member McKeon, 
members of the committee, thank you for inviting me here today, 
and thank you, Representative Scott, for your kind introduction 
and for all of the work that you have done over the years.
    In 1999, I assisted the FBI in its study of school 
shootings which recommended that schools use a threat 
assessment approach to prevent school violence. Threat 
assessment is a standard law enforcement approach developed by 
the Secret Service and used in many different settings. Threat 
assessment involves identifying a threat, evaluating how 
serious it is and taking action to prevent it from being 
carried out. My colleagues and I developed and field-tested a 
threat assessment procedure for primary and secondary schools 
that can be extended to colleges. I am going to talk first 
about school safety and then about threat assessment. Pardon me 
for speaking quickly. I have got a lot to cover, and you know 
how professors love to pontificate.
    In response to every school shooting, there are calls to 
increase security and even to arm teachers. Such 
recommendations focus on crisis response, but prevention can 
not wait until the gunman is in your parking lot. I am here 
today to emphasis prevention. We have to study the problem 
objectively and make sure that our responses are not skewed by 
extreme cases. After Columbine, many schools overreacted by 
expanding zero tolerance policies so that students were 
expelled for actions as trivial as having a plastic knife in 
their lunch box. Despite the recent shootings, scientific 
studies cited in my written statement demonstrate that schools 
are safe and that violence is decreasing, not increasing, both 
in our schools and on our college campuses. With the exception 
of this year, there are about 16 murders on college campuses 
each year. With 4,200 colleges, the average college can expect 
a murder on campus about once every 265 years. If you include 
murders in the surrounding community, off campus as well as on 
campus, the rate is about once every 9 years. Now, of course, 
we want the number to be zero. We want to prevent every single 
possible fatality, but we have to look objectively and 
recognize the challenge that is in front of us to deal with 
that lofty standard. In addition to homicides, we have less 
severe but more pervasive forms of violence such as bullying 
and fighting, and fortunately, a scientific review of more than 
200 controlled studies has found that school violence 
prevention programs can reduce violent and disruptive behavior 
by about 50 percent. Funding for school violence prevention to 
the Office of Safe and Drug Free Schools should be protected 
and expanded. Terms like ``school violence'' and ``campus 
violence,'' I think, are misleading, because they imply that 
the location is the defining feature of the problem. We have 
had mass shootings in restaurants, but no one talks about 
restaurant violence. The focus on location leads to unrealistic 
efforts to make our open public places so secure that they are 
no longer open or public, so we cannot turn our schools into 
fortresses.
    The Virginia Tech shooting appears to be the act of an 
individual who was paranoid, delusional and suicidal. This 
shooting represent a mental health problem more than a school 
problem. Our Nation suffers from poor insurance coverage for 
mental health services and from poor communication and 
coordination among those services. Even when we know someone 
needs treatment, there is no effective mechanism to make sure 
the treatment is delivered and no follow-up to make sure it was 
effective. College campuses see many students with serious 
mental health problems. Yet, their staffing levels and 
resources are limited and are focused on short-term treatment.
    Now, both the FBI and the Secret Service recommended a 
threat-assessment approach because, in almost every school 
shooting, the violent student communicated his intentions well 
in advance. At the University of Virginia, we trained threat 
assessment teams in 35 schools for field test, and each team 
included a school administrator, a psychologist and a law 
enforcement officer. Although serious acts of violence are 
rare, threats are very common, and in 1 year, these teams 
investigated 188 student threats of violence. All of the 
threats were not the same. About 75 percent were just 
statements made in anger or jest that could be readily resolved 
with an explanation, counseling and an apology. The remaining 
30 percent were more serious, and usually they involved one 
student threatening to fight another student, but we also had 
threats to shoot and kill that were resolved. In these cases, 
our teams conducted a safety evaluation that included both the 
psychological assessment and a law enforcement investigation. 
Every threat signals a problem that should be addressed before 
it escalates into violence, and in our follow-up study, we 
found that none of the threats were carried out. Just six 
students were arrested, and three were expelled, which is much 
better than if the schools had used a zero tolerance approach.
    A study by the American Psychological Association found 
that zero tolerance has a damaging effect on student 
achievement and no evidence that it makes schools safer.
    So, over the past 5 years, we have trained thousands of 
school teams in a dozen States. Memphis City schools adapted 
our motto, and were able to resolve more than 200 threats 
without any known violent outcomes and, again, keeping almost 
all of the students in school, but there has been no Federal 
program designated to fund threat assessment research or 
training, and so, when this committee works on No Child Left 
Behind, I hope you will make threat assessment part of every 
college's comprehensive school safety plan.
    Let me wrap up by saying that threat assessment can be 
extended to colleges, even though it is easier to monitor and 
to supervise a high school student than a college student. 
Threat assessment is used in business and in industry to 
prevent workplace violence, so this challenge can be overcome.
    In closing, our schools and colleges are safe, but in a 
large nation with thousands of schools, even rare events will 
occur with troubling frequency and skew our perceptions of 
safety. We must avoid overacting to rare events and make better 
use of prevention methods, including threat assessment.
    Thank you for the opportunity to present this testimony. I 
am pleased to answer any questions.
    [The statement of Mr. Cornell follows:]

   Prepared Statement of Dewey G. Cornell, Ph.D., Forensic Clinical 
Psychologist and Professor of Education, Director of the Virginia Youth 
  Violence Project, Curry School of Education, University of Virginia

Student Threat Assessment
    Good morning Chairman Miller, Ranking Member McKeon and 
distinguished members of the Committee. Thank you for inviting me here 
today. I applaud you for your efforts to make college campuses safer by 
convening this hearing.
    I am Dr. Dewey Cornell, a forensic clinical psychologist, a member 
of the American Psychological Association, and Professor in the School 
of Education at the University of Virginia. I direct the Virginia Youth 
Violence Project, which studies school safety and violence prevention 
(http://youthviolence.edschool.virginia.edu). For 23 years I have 
conducted research on the psychological characteristics of young people 
who commit violent acts, and as a clinician, I have examined many 
juvenile and young adult offenders.
    In 1999 I assisted the FBI in its study of school shootings 
(O'Toole, 2000). Both the FBI study and another study conducted by the 
Secret Service (Fein et al., 2002) strongly recommended that schools 
train their staff to use a threat assessment approach to prevent 
student violence. Threat assessment is a procedure developed by the 
Secret Service that has become a standard law enforcement approach used 
in many different settings (Fein, Vossekuil, & Holden, 1995). Threat 
assessment involves identifying a threat, evaluating how serious it is, 
and taking action to prevent it from being carried out. Most educators 
were completely unfamiliar with ``threat assessment'' and were 
unprepared to implement this approach. In response, my colleagues and I 
at the University of Virginia have developed and field-tested a threat 
assessment model for primary and secondary schools. I am going to talk 
first about the safety of our schools and then about our research on 
threat assessment and how it can be used to improve the safety 
conditions in our nation's colleges as well as our K-12 schools.
    This year we have experienced tragic shootings at the Amish school 
in Pennsylvania and at Virginia Tech, among others. In response to such 
horrific events, there have been calls to increase security at our 
schools, and even suggestions to arm our teachers. There are 
recommendations to install sirens and cameras and to create high-tech 
warning systems to alert students to an attack. While these 
interventions focus on crisis response, it is critically important that 
our efforts concentrate on prevention strategies. Prevention cannot 
wait until the gunman is in your parking lot. School shootings can be 
prevented and I am here today to emphasize prevention.
    In order to prevent violence, we have to study the problem 
objectively and make sure that our responses are not skewed by extreme 
cases. After Columbine, many schools overreacted by expanding zero 
tolerance programs so that students were expelled for behaviors as 
trivial as bringing a plastic knife to school in their lunch box. We 
continue to see students as young as five years old being arrested for 
misbehavior that would have been handled much differently ten years 
ago. We have to be careful that our responses are measured and 
reasonable.
Schools are safe
    First, I want to address school safety from a broader and more 
positive perspective. Despite recent events, the level of violent crime 
in our schools and colleges is low. National crime statistics 
demonstrate that it is safer for a student to be at school than to be 
at home or on the street. Crime victim research also finds that 
students are less likely to be harmed at school than in the community 
(DeVoe, Peter,Noonan, Snyder, & Baum, 2005). These findings hold up for 
both K-12 schools and colleges. For example, the violent crime rate is 
lower on college campuses than off campuses and the victimization rate 
for college students is lower than for persons the same age who are not 
in college (Baum & Klaus, 2005).
    Furthermore, there is no upward trend of increasing violence in our 
schools. Over the past ten years, the rate of violence in schools and 
colleges has actually declined substantially (Baum & Klein, 2005; 
DeVoe, Peter,Noonan, Snyder, & Baum, 2005). The scientific studies to 
support these conclusions are cited in my written statement.
    According to the latest available data from the U.S. Department of 
Education (2001-2004), there were 95 murders on college campuses in the 
six years from 1999 to 2004, an average of 16 per year. Since there are 
approximately 4,200 colleges in the United States, this means the 
average college can expect to experience a murder on campus about once 
every 265 years. If you include all 2,808 murders that occurred in the 
surrounding community--off campus as well as on campus--the rate is 
much higher: about once every 9 years. This is a reflection of the much 
higher rate of violence in the general community.
    It was tragic to have 33 deaths in one day at Virginia Tech, but 
according to the CDC, every year more than 30,000 persons die by 
firearms through suicide or homicide. This is the equivalent of the 
Virginia Tech death toll occurring 2 to 3 times every day. This is not 
to minimize the tragedy of school shootings; we want the number to be 
zero. But if we are going to prevent these events, we have to start 
with placing them in a broader context.
Schools need prevention programs
    Although research demonstrates that schools are safe and that 
extreme acts of violence are unlikely, we do have less severe forms of 
violence such as bullying, fighting, and threatening behavior. These 
are important problems in their own right, and they are also important 
because they can escalate into shootings.
    Fortunately, we have effective violence prevention programs for 
schools. There have been more than 200 controlled studies of school 
violence prevention programs, and we know that school-based mental 
health programs and counseling focused on helping students learn how to 
solve problems and resolve conflicts are effective (Wilson, Lipsey, & 
Derzon, 2003). A scientific review of these studies by researchers at 
Vanderbilt University found that they can reduce violent and disruptive 
behavior by about 50 percent (Wilson, Lipsey, & Derzon, 2003). If these 
programs were more widely used, we could identify and help troubled 
students before they reach the point of homicide. The main source of 
funding for school violence prevention is through the Office of Safe 
and Drug-Free Schools. Funding for this program should be protected and 
expanded.
    Terms like ``school violence'' and ``campus violence'' are 
misleading because they imply that the location is the defining feature 
of the problem. We have had mass shootings in restaurants and shopping 
malls, but no one speaks about ``restaurant violence'' or ``mall 
violence.'' The focus on location leads to unrealistic efforts to make 
open, public places so secure that they are no longer open or public. 
We cannot turn our schools into fortresses. We cannot search every 
backpack on college campuses.
    The Virginia Tech shooting appears to be the act of an individual 
with severe mental illness who was paranoid, delusional, and suicidal. 
This shooting represents a mental health problem more than a school 
problem. Our nation suffers from poor insurance coverage for mental 
health services, and from poor communication and coordination among 
these services. Even when we know someone needs treatment, there is no 
effective mechanism to make sure the treatment is delivered and no 
follow-up to make sure it was effective. College campuses see a 
substantial number of students with serious mental health problems, yet 
their staffing levels and resources are focused on short term 
counseling.
Schools need a threat assessment approach
    After Columbine, there was widespread demand for a checklist of 
characteristics that we could use to identify the next shooter. This is 
called profiling, and both the FBI and Secret Service have concluded 
that profiling is not possible for this kind of crime (O'Toole, 2000; 
Vossekuil, Fein, Reddy, Borum, & Modzeleski, 2002). The backgrounds of 
school shooters are too varied, and the characteristics they have in 
common are too general.
    However, both the FBI and Secret Service observed that in almost 
every case the violent student communicated his or her intentions well 
in advance of an attack. These individuals usually made threats or 
engaged in threatening behavior that frightened others. The problem was 
that there was not an effective, systematic response to these threats. 
The FBI also observed that many potential school shootings were 
prevented because threats were investigated and found to be credible. 
In light of these findings, both the FBI and the Secret Service, in 
conjunction with the U.S. Department of Education, recommended that 
schools adopt a threat assessment approach (O'Toole, 2000; Fein et al., 
2002).
    Threat assessment is a standardized procedure for investigating a 
threat, and if the threat is a serious substantive threat, taking 
preventive action. At the University of Virginia we developed a set of 
threat assessment guidelines and we trained teams in 35 schools 
(Cornell, et al., 2004). Each team included a school administrator, a 
psychologist or counselor, and a law enforcement officer. The teams 
field-tested the guidelines for a year. Although serious acts of 
violence are rare in schools, threats are common. The school teams 
investigated 188 student threats of violence.
    All threats are not the same. Some threats are just statements made 
in anger or in jest, or attempts to gain attention or be provocative. 
The first step in threat assessment is to determine whether the threat 
is serious, which we term substantive, or not serious or transient. 
Fortunately, most threats are transient and can be readily resolved 
with an explanation, an apology, and some counseling. About 70 percent 
of the threats were resolved in this manner.
    The remaining 30 percent of threats were more serious, usually one 
student threatening to fight another student, but we had threats to 
shoot and stab and kill that could not be easily resolved. In these 
cases, our threat assessment team conducted a safety evaluation that 
included two components: a psychological assessment of the student and 
a law enforcement investigation of whether there was evidence that the 
person was preparing to carry out the threat. The combination of mental 
health and law enforcement is essential to a threat assessment.
    The team takes a problem solving approach--why did this student 
make a threat and what can we do to reduce the risk of violence? We 
found students who had serious mental health problems that needed 
treatment. We found students who were victims of bullying and looking 
for a way to strike back. We found conflicts over girlfriends and 
boyfriends. All kinds of threats.
    Every threat signals an underlying problem that should be addressed 
before it escalates into violence. In our follow-up study, we could not 
find that any of the threats were carried out. Out of 188 cases, we had 
just six students who were arrested and three who were expelled. This 
is a much better result than if the schools had used a zero tolerance 
approach that would have resulted in numerous expulsions. The American 
Psychological Association's report on zero tolerance (Skiba et al., 
2006) found that school expulsions have a damaging effect on student 
achievement and increase the dropout rate. There is no evidence that 
zero tolerance makes schools safer.
    Memphis City Public Schools has adapted our model and found that 
they were able to resolve more than 200 threats without any known 
violent outcomes and again keeping almost all of the students in school 
(Strong, Wilkins, & Cornell, 2007). Over the past 5 years we have 
trained thousands of threat assessment teams in a dozen states. But we 
need more research on threat assessment. There has been no federal 
program designated to fund threat assessment research. The Secret 
Service has conducted threat assessment training in conjunction with 
the Office of Safe and Drug-Free Schools, but this has been a limited 
effort. We need a strong initiative to make threat assessment part of 
every school's comprehensive school safety plan. I hope this Committee 
will keep this need in mind when it works to strengthen crucial federal 
programs such as those authorized under No Child Left Behind.
    Threat assessment can be adapted for colleges, too, even though 
there are some important differences between K-12 schools and colleges. 
College students are adults and not under parental control. It is much 
easier to monitor and supervise a high school student than a college 
student. On the other hand, threat assessment is used in business and 
industry to prevent workplace violence (Gelles & Turner, 2003), so 
these challenges can be overcome.
Conclusions
    In closing, our educational institutions have an obligation to 
maintain a safe and supportive environment that is conducive to 
learning. Overall, our schools and colleges are safe, but in a large 
nation with thousands of schools, even rare events will occur with 
troubling frequency and skew our perceptions of safety and risk. We 
must avoid overreacting to rare events and make better use of 
prevention methods that address the ordinary forms of violence as well 
as the more extreme ones.
    Threat assessment is a standard violence prevention approach used 
by law enforcement in many different settings. Our research supports 
the use of threat assessment in schools, but we need more research and 
training to make it a standard practice and to extend it to colleges. 
We urge you to support research and training on threat assessment for 
our schools and colleges.
    Thank you, again, for the opportunity to present this testimony. I 
would be pleased to answer any questions.

                               REFERENCES

Cornell, D., Sheras, P. Kaplan, S., McConville, D., Douglass, J., 
        Elkon, A., McKnight, L., Branson, C., & Cole, J. (2004). 
        Guidelines for student threat assessment: Field-test findings. 
        School Psychology Review, 33, 527-546.
DeVoe, J. F., Peter, K., Noonan, M., Snyder, T. D., & Baum, K. (2005). 
        Indicators of school crime and safety: 2005 (NCES 2006-001/NCJ 
        210697). U.S. Departments of Education and Justice. Washington, 
        DC: U.S. Government Printing Office.
Fein, R.A., Vossekuil, F., & Holden, G.A. (1995). Threat assessment: An 
        approach to prevent targeted violence. National Institute of 
        Justice: Research in Action, 1-7 (NCJ 155000), Available http:/
        /www.secretservice.gov/ntac.htm.
Fein, R., Vossekuil, B., Pollack, W., Borum, R., Modzeleski, W. & 
        Reddy, M. (2002). Threat assessment in schools: A guide to 
        managing threatening situations and to creating safe school 
        climates. Washington, DC: U.S. Secret Service and Department of 
        Education.
Gelles, M.G. & Turner, J. T. (2003). Threat assessment: A risk 
        management approach. Bethesda, MD: Haworth Press, Inc.
O'Toole, M.E. (2000). The school shooter: A threat assessment 
        perspective. Quantico, Virginia: National Center for the 
        Analysis of Violent Crime, Federal Bureau of Investigation.
Skiba, R., Reynolds, C., Graham, S., Sheras, P., Conoley, J., & Garcia-
        Vazquez, E. (2006). Are zero tolerance policies effective in 
        the schools? An evidentiary review and recommendations. A 
        report by the American Psychological Association Zero Tolerance 
        Task Force. Washington, DC: American Psychological Association.
Strong, K., Wilkins, D., & Cornell, D. (2007). Student threat 
        assessment in Memphis City Schools. Unpublished report. 
        Memphis, Tennessee: Memphis City Schools.
U.S. Department of Education (2001- 2004). Summary of Campus Crime and 
        Security Statistics. Washington, D.C. (http://www.ed.gov/
        admins/lead/safety/crime/criminaloffenses/index.html)
Vossekuil, B., Fein, R. A., Reddy, M., Borum, R., & Modzeleski, W. 
        (2002). The final report and findings of the Safe School 
        Initiative: Implications for the prevention of school attacks 
        in the United States. Washington, DC: U.S. Secret Service and 
        U.S. Department of Education.
Wilson, S.J., Lipsey, M.W., & Derzon, J.H. (2003). The effects of 
        school-based intervention programs on aggressive behavior: A 
        meta-analysis. Journal of Consulting and Clinical Psychology, 
        71, 136-149.

                         BIOGRAPHICAL STATEMENT

    Dewey G. Cornell, Ph. D. is a forensic clinical psychologist and 
Professor of Education in the Curry School of Education at the 
University of Virginia. Dr. Cornell is Director of the UVA Youth 
Violence Project and a faculty associate of the Institute of Law, 
Psychiatry, and Public Policy. As a clinician, Dr. Cornell has 24 years 
experience evaluating juvenile and adult violent offenders and 
testifying in legal proceedings, including school shootings and other 
juvenile homicide cases. He consulted with the FBI in its study of 
school shootings and developed threat assessment guidelines for schools 
that are being used throughout Virginia and other states. As a 
researcher, Dr. Cornell has authored more than 100 publications in 
psychology and education, including studies of juvenile homicide, 
bullying, psychopathy, and violence. He is currently directing a 
statewide study of school climate and discipline practices in 312 
Virginia high schools.
                                 ______
                                 
    Chairman Miller. Thank you.
    Dr. Walbert.

 STATEMENT OF JAN WALBERT, PRESIDENT, NATIONAL ASSOCIATION OF 
   STUDENT PERSONNEL ADMINISTRATORS, AND VICE PRESIDENT FOR 
              STUDENT AFFAIRS, ARCADIA UNIVERSITY

    Ms. Walbert. Good morning.
    Chairman Miller, thank you for that generous introduction. 
Mr. McKeon and other members of the committee, I am pleased to 
be here to testify today.
    In addition to representing Arcadia University and NASPA, I 
am here today due to extensive collaboration among student 
affairs associations included on the consortium on government 
relations for student affairs, which, in addition to NASPA, is 
composed of the American College Personnel Association, the 
Association of College Unions International, the Association of 
Student Judicial Affairs, and the Association of College and 
University Housing Officers International. There are three 
primary points I will address.
    One, the role of student affairs professionals is central 
to the implementation of effective education, prevention and 
intervention systems that do exist on campuses. Given that 17 
million students attend colleges and universities, it is worth 
noting that U.S. News and World Report indicate campuses remain 
among the safest places in America.
    Two, there is considerable evidence that we are facing 
increases in the mental health issues among students. Research 
suggests that strategies are effective in dealing with college 
students, and existing laws protect and support students' 
privacy as well as serve to protect the community, and most 
importantly, for today, we can always learn more and work to 
improve our current systems. I speak now only from my own 
experiences as a senior student affairs officer, but I also 
speak on behalf of more than 25,000 student affairs 
administrators throughout the U.S.
    As dedicated educators, vice presidents, deans in those 
many areas that were mentioned in the introduction, we work 
with the students 24/7. We enhance students' well-being and 
ensure that our campus environments are conducive to student 
learning. Our roles include collaboration on prevention and 
intervention strategies as well as planning for and responding 
to those critical situations and campus emergencies. Contrary 
to the typical perspective that academic endeavors occur only 
in the classroom, we in student affairs educate at every level 
and around the clock. For example, I am sure that each of you 
can think of life skills you learned somewhere other than a 
classroom as an undergraduate student.
    There are no guarantees as we are sadly reminded at this 
time in our history. The horrific events that occurred at 
Virginia Tech could have happened anywhere across this Nation. 
They could have happened on another campus despite the fact 
that there are extensive systems to deal with crises such as 
the death of a student by natural causes or suicide as well as 
natural disasters like Hurricane Katrina. However, primary 
efforts of prevention and intervention are utilized with much 
greater frequency. There is no way to count how many crises 
have been averted. It may not be surprising that we face 
critical situations so frequently that many of us are quite 
familiar with communication chains, law enforcement colleagues 
and mental health resources. When I walk into our local 
hospital or one time when I was wheeled in as a patient, the 
staff recognized me and often called me by name. Prevention, 
intervention and response to critical situations succeed with 
extensive collaboration. When a serious concern about a student 
recently surfaced on our campus--and there have been several 
recently--contacts were made with public safety, faculty and 
residents' life staff. Ultimately, we engaged the family. With 
everyone's assistance, the student was admitted to an inpatient 
facility. Whether the student's life will change enough to help 
that student survive over time, I may never know, but we do 
know that cooperation with counseling staff and others allowed 
us to get that student to a safer place at that time.
    Like this example, most incidences occur on campuses 
without fanfare, with no media exposure, and they result in 
safe outcomes for students. Due to the success, we can 
anticipate that the demands for services will continue to 
escalate as will the need for additional resources. Students 
exhibiting disruptive or dangerous behavior may face interim 
suspensions and administrative or disciplinary action, which 
may include or require consultation with qualified mental 
health professionals and parents.
    We are constantly learning common and best practices occur 
at institutions of all sizes and types. Approaches to enhanced 
counseling services, case management strategies and emergency 
response protocols are shared regularly. Even with extensive 
collaboration, sound practices, policies and laws, we cannot 
eliminate all risks of crises or emergencies. We must plan and 
intentionally think through these issues.
    When a parent called me on the morning of September 11th, 
he asked, ``How are you going to protect my daughter?'' I 
responded quite genuinely.
    I said, ``Sir, we have not been able to protect the 
Pentagon today. You can see how it would be irresponsible of 
higher education to make promises of our ability to absolutely 
protect the safety of each and every student. We may wish we 
were sanctuaries, and the public may still consider us as such, 
but the concept of an ivory tower is long gone.''
    Thank you for this opportunity to represent my colleagues 
in the important work that they do. I look forward to your 
questions.
    Chairman Miller. Thank you very much.
    [The statement of Ms. Walbert follows:]

  Prepared Statement of Janet E. Walbert, Ed.D., President, National 
  Association of Student Personnel Administrators, Vice President for 
                  Student Affairs, Arcadia University

    Good morning Chairman Miller, Ranking Member McKeon, and Members of 
the Committee on Education and Labor.
    My name is Janet Walbert and I serve as Vice President for Student 
Affairs at Arcadia University, a coeducational private, comprehensive 
university located in Glenside, Pennsylvania, in the suburbs of 
Philadelphia. I also testify to you today in the capacity of President 
of the National Association of Student Personnel Administrators 
(NASPA). NASPA is the largest professional association for student 
affairs administrators, faculty, and graduate students in the student 
affairs field, representing more than 1,400 campuses in 29 countries 
around the world.
    Thank you for giving me this opportunity to testify today. I am 
here to speak not only from my own experiences as a senior student 
affairs officer, but I also speak on behalf of the more than 25,000 
student affairs administrators employed at colleges and universities 
throughout the nation. We collaborate with many colleagues and other 
associations. Student affairs administrators on campuses across the 
country are working to address and enhance students' well-being and to 
ensure that our campus environments are conducive to student learning. 
In addition, national student affairs associations are working together 
to provide additional best practices and policy considerations. The 
Consortium on Government Relations for Student Affairs is composed of: 
American College Personnel Association (ACPA); Association of College 
Unions International (ACUI); Association of Student Judicial Affairs 
(ASJA); National Association of Student Personnel Administrators 
(NASPA); and Association of College and University Housing Officers 
International (ACUHO-I). These organizations collaborate on the 
development of strategies and public policy issues of concern to 
student affairs professionals. It is through the efforts of such 
collaboration that I testify today.
    There are five primary points I hope to address through this 
testimony.
    <bullet> Student Affairs professionals are meaningfully engaged in 
the lives and well-being of college and university students.
    <bullet> Effective systems exist on most campuses and address a 
large majority of situations, with many situations never reaching a 
critical point because of effective prevention and early intervention, 
but there are no guarantees.
    <bullet> We face increases in the mental health issues among 
students and these challenges are successfully addressed in most cases.
    <bullet> Current laws exist to protect and support students' 
privacy as well as protect the community and allow for communication 
with appropriate family members when an individual's personal well-
being is at risk.
    <bullet> We can always learn more and we must continue to work on 
improving systems.
    Student affairs administrators, like me, play key roles in 
educating our nation's students as we work directly with students and 
the varied support networks of family members and other university 
colleagues. In addition, our roles include planning for campus 
emergencies and managing campus crises, which occur at many levels and 
in a range of magnitudes of visibility and complexities. As 
professionals we dedicate our daily (and nightly) work with our 
students, and team with many others to enhance the quality of the 
learning environments in our campus communities. While there are no 
guarantees, as we are sadly reminded at this time in our history, we 
work collaboratively to address prevention, intervention and response 
to critical situations involving our students.
    Student affairs administrators are vice presidents of student 
affairs, deans of students, mental health professionals, housing 
officers, student activities administrators, fiscal officers, food 
service administrators, admissions officers, Greek life advisors, 
recreation managers, and so much more. It is the job of student affairs 
professionals to facilitate student learning through action, 
contemplation, reflection, and emotional engagement, as well as 
information acquisition. In the college and university environment 
student affairs departments often work collaboratively with colleagues 
in of academic affairs to promote the development of the whole student. 
In order to prepare for professional positions within the field of 
student affairs, administrators build upon personal experiences and 
often enroll in graduate school programs, grounded in student 
development theory as well as counseling and leadership components. 
Through ongoing professional development provided by postsecondary 
institutions, professional associations and collegial networks, student 
affairs administrators are able to ensure that current best practices 
are implemented on their respective campuses. As educators we are 
prepare students for effective and engaged citizenship.
    Every day, and most nights and weekends, my colleagues across the 
nation focus their collective energies and attention on how our living 
and learning environments are meeting the needs of individual students 
and the expectations of parents. Contrary to the typical perspective 
that academic endeavors occur only in classrooms, we in student affairs 
educate at every level, around the clock.
    The horrific events that occurred at Virginia Tech on April 16th 
could have happened anywhere across the nation. They could have 
happened on another campus despite the fact that higher education 
administrators generally, and student affairs administrators 
specifically, have established extensive systems to deal with 
individual student crises as well as larger catastrophes on campus--
whether it is the death of a student by natural causes or suicide, 
natural disasters like Hurricane Katrina, or acts of terrorism that 
could potentially harm students, faculty, and staff. Our focus has been 
and will continue to be on diligence in both efforts of prevention as 
well as effective response.
    The reality is that extremely good systems are fully operational on 
most of our campuses. Student affairs officers currently share best 
practices and strategies, meet with experts, and participate in 
electronic and in-person educational programs throughout the year. 
Participation in the National Incident Management System (NIMS) is an 
example of on-line training and efforts to integrate common knowledge 
and systems into campus-based protocols and policies.
    Virtually every college and university campus today has a crisis 
management plan, clear protocols for managing emergencies, and 
strategies to communicate with the campus constituencies directly and 
indirectly affected. These plans were implemented six years ago when 
our campuses moved swiftly and expeditiously to respond to the events 
of September 11, 2001--to secure our campuses and to respond to the 
needs of our students. When Texas A&M University responded immediately 
to a campus bonfire accident that killed 12 students and injured 27 
others, the emergency protocols were successfully enacted. Similarly 
protocols were in place that helped restore order to the University of 
Florida following the killing of three college students by a serial 
murderer. They are implemented any time a student dies on our campuses. 
It may be considered unfortunate, but not unexpected, that so many 
campuses deal with crises of one nature or another frequently enough to 
be familiar with the various aspects of our communication chains, local 
law enforcement agencies, mental health resources, and community health 
organizations.
    The challenge has always been and remains today that college and 
university campuses, by their very, nature are open and accessible 
places. In testimony provided by Dr. Thomas Kepple, President of 
Juniata College, in the Pennsylvania Senate Education Committee 
Hearings on May 2, 2007, he stated: ``The founders of America's early 
colleges were often graduates of universities like Oxford and 
Cambridge. Unlike those exclusive universities, Americans wanted our 
colleges to be inclusive. * * * Our colleges and universities are very 
much physical symbols of a new and very inclusive democracy.'' Many of 
the nation's 439 public four-year institutions cover acres of land and 
enroll in the tens of thousands of students. Some 17 million students 
attend this country's more than 4,000 colleges and universities. Most 
campuses do not have single points of entry or any means for 
controlling access to every square inch of campus. We may wish we were 
sanctuaries--and the public may still consider us as such--but the 
concept of academe's ivory tower is long gone.
    Reports of disruptive behavior in classrooms, residence halls, and 
even in surrounding communities are commonly referred to student 
affairs administrators. To best address both isolated and repeated 
problems, a coordinated effort from administrators across campus is 
required. In attempts to identify students at risk, we must constantly 
work to improve our ability to share information and cover all bases. 
This includes information from peers, from mental health centers, from 
faculty, from other students in residence halls, from concerned 
parents, and from campus police. When a student appears on the radar 
screen at any corner of campus, we must and do exercise prudent 
judgment and share information with appropriate constituents on campus. 
Intervention must be rapid but correct, and points of intervention 
across campus must be clearly defined and communicated.
    Situations where faculty raise questions, students report 
situations, and other staff members know of special circumstances, such 
as a death in the family, arise every day on our campuses. We deal with 
these situations formally, informally, and directly with students. 
Depending on the magnitude of the situation and the information 
available from the student, communication with parents or family 
members may occur. From the time students set foot on our campuses, we 
build partnerships with parents to enhance communications. Frequently, 
students engage their parents as a result of the direct involvement of 
student affairs. The existing laws allow for communication with 
appropriate family members when an individual's personal well-being is 
at risk. Balancing the standard thresholds and expectations of when to 
communicate continues to be at the forefront of the thinking of student 
affairs administrators, as it has been historically for counselors in 
confidential relationships with clients.
    As part of a college or university's executive leadership team, 
vice presidents for student affairs and deans of students work hand-in-
hand with their senior administrative counterparts and other student 
affairs and academic affairs staff members to plan, execute, and 
evaluate campus prevention efforts, crisis protocols, and intervention 
strategies. Collaboration on campus is essential and common. None of us 
can do this alone. We also work in coordination with the campus safety 
departments and local, state, and federal law enforcement agencies to 
enhance safety inside and outside the campus.
    At all institutions, students are repeatedly informed of safety 
protocols. Written and verbal communications ensure that students are 
informed of campus safety policies and procedures. Programs such as 
orientation sessions and residence hall meetings facilitate students' 
understanding of these policies in an effort to augment their own and 
their peers' safety on and off campus. Students must take some 
responsibility to understand the importance of this information. All of 
these mechanisms are also enhanced with the development of electronic 
communication allowing access to this information at the touch of a 
fingertip 24 hours a day, seven days a week.
    Campus security is enhanced with the utilization of electronic 
surveillance and electronic access to residence halls. Student affairs 
professionals train resident assistants to identify potential threats 
to the safety and security of students living in residence halls. While 
resident assistants cannot take the place of campus safety and law 
enforcement officials or campus judicial officers, they are well 
trained and effective liaisons in recognizing and addressing 
interpersonal conflicts, code of student conduct violations, signs of 
mental health concerns, and other critical issues relating to the well-
being of residents.
    Our campuses are inseparable from the very communities and diverse 
cultures that form this great country. Like thousands of communities 
across the nation, we have our share of residents who abuse drugs or 
alcohol, who have been involved in confrontations with faculty members 
or fellow students, or who have traded threatening e-mails. These 
situations are not unusual, nor are they taken lightly.
    Just like the general population, our student populations include 
increasing numbers of individuals dealing with mental health issues. In 
recent years, students increasingly report stress, depression, thoughts 
of suicide, relationship problems, and substance abuse problems. In the 
2006 National Survey of Counseling Center Directors that includes data 
provided by directors from 367 counseling centers at institutions 
across the United States 92 percent of the respondents believed that 
the number of students with severe psychological problems has increased 
in recent years. According to the survey, directors reported that 40 
percent of their clients have severe psychological problems. In a 
survey conducted by the American College Health Association-National 
College Health Assessment (2006) of more than 94,000 students and 123 
postsecondary institutions, more than half of the students reported 
feeling hopeless in the past year, more than 35 percent reported 
feeling so depressed that they could not function three or more times a 
year, and nearly 10 percent reported seriously considering suicide in 
the previous year. Additional research reported in 2006 conducted by 
Allan Schwartz, Ph.D., Associate Professor of Psychiatry at the 
University of Rochester, indicates when the data related to suicide is 
analyzed comparing college students and the general population, 
controlled for age and gender, it appears that counseling centers are 
effective in treating suicidal students. The bottom line: healthcare 
professionals have become so good at treating young people with 
psychological issues that growing numbers are able to attend college 
and obtain degrees. Thanks to greater student access to psychotherapy, 
advances in medications to treat psychological problems, and growing 
public acceptance of antidepressant therapies, we have more students on 
our campuses that face these mental health problems. In addition, we 
have many students who, with support and responsiveness of strong 
campus professionals, manage or overcome their personal hurdles and 
successfully complete their educational pursuits.
    Student affairs administrators are among those who are lowering 
thresholds of tolerance for aberrant behavior, whether it is the 
possession of weapons, verbal threats, or stalking. We are swiftly 
taking action before student behavior becomes harmful to others, and we 
are making it easier and more comfortable for students to raise 
concerns to campus staff members in a confidential manner. Hotlines, 
web access to file reports of concern, information about referral 
mechanisms, and communication about how to assist others are common on 
many campuses. The ability to document how many incidents are averted 
or limited in scope because of expedient responses by student and 
professional staff is limited. It is extremely difficult if not 
impossible to document concrete results of prevention efforts. Yet, we 
know that we are educating about civility, communication, conflict 
resolution, and understanding diversity across the nation's campuses.
    Higher education is not above the law. We must protect individual 
rights and follow the law in dealing with an individual's right to 
participate fully in campus life. If a student misses a series of 
classes because they are depressed or they openly discuss suicide or 
other unacceptable behaviors, we cannot simply banish them from our 
campuses. It is these very types of situations that, when addressed, 
are typically resolved before a tragedy occurs.
    Our campuses must abide by federal and state confidentiality laws 
regarding key records and communications and the release of 
confidential information. Section 504 of the Rehabilitation Act of 1973 
protects qualified disabled individuals from being excluded from 
participation in, being denied the benefits of, or being subjected to 
discrimination under any program or activity receiving federal 
financial assistance. While administrators cannot make the decision if 
a student's mental health condition qualifies him or her as disabled, 
mental health professionals on and off campus can provide that 
assessment. If a student discusses disturbing thoughts during a campus 
counseling session, the counselor must take precautions to avoid 
violating the recognized psychotherapist-patient privilege.
    To be aligned with our common mission, higher education 
administrators, including senior student affairs officers, must have 
the latitude to determine policies from the best educational approach. 
While we certainly understand the importance of safe environments as a 
key element for learning, our primary roles focus on the education of 
all of our students. Engaging the community, opening our doors for 
participation in campus events such as theater productions, concerts, 
or use of our libraries, certainly allows a level of exposure, but one 
most of us maintain is important. When focusing on our students, if 
students are disruptive--defined as behavior that is typically well-
addressed in each institution's student code of conduct--we must hold 
them accountable through progressive discipline. Dangerous or 
disruptive behavior (including acts and threats of self-harm) can be, 
and are frequently, addressed immediately by interim suspension 
policies, followed by appropriate process for any administrative or 
disciplinary proceedings. Common practices and administrative processes 
give students opportunities to tell their stories. Colleges and 
universities often include or require consultation with qualified 
mental health professionals to establish that such students do not pose 
a potential or immediate threat to oneself or the community.
    Across the nation, many varied institutions are engaged in common 
best practices that complement current efforts to minimize crises, 
address situations that do arise and support the students, faculty, and 
staff who may be affected. Examples of such best practices include the 
following:
    <bullet> Creating expanded counseling services or a counselor-in-
residence position. On some campuses with expanded resources counselors 
may be on call around the clock, have offices in the residence halls, 
conduct programs, consult with staff, and intervene in crises.
    <bullet> Coordinating the delivery of resources to students with 
behavioral or mental health problems via a student assistance 
coordination committee. Committees exist that develop and implement 
communication networks and protocols among relevant units to deliver 
seamless services. Through consultations and referrals, members of the 
campus community are encouraged to identify and address potential 
behavioral or mental health problems and to review, update and 
distribute critical incident response guidelines.
    <bullet> Holding monthly meetings of a crisis intervention 
committee to review new and pending disciplinary cases that go beyond 
ordinary or routine behaviors. Committee membership vary depending on 
the campus but typically include the chief of police or campus safety, 
housing representatives, university attorneys, human resources 
representatives, on-call staff, dean or coordinator, judicial affairs 
representatives, academic affairs representatives, counseling center 
staff, and other administrators such as women's center directors or 
student health services staff.
    <bullet> Assembling a case management group that meets biweekly to 
share reports, even anonymous reports, about students of concern and 
discuss possible interventions.
    <bullet> Charging the campus police chief or another appropriate 
campus administrator to assemble, train and exercise an emergency 
response team. Campuses simulate disaster days annually to fine-tune 
the team's emergency response plan. In addition, weekly meetings, 
including key student affairs officers and campus police, are held to 
review police reports and flag unusual student activities from the 
previous week.
    <bullet> Creating a permanent incident command centers with full 
back-up generators and computers. This includes implementing an 
emergency communications system for activating the command center and a 
crisis action team.
    The list goes on and on. The above identified activities summarize 
just a few of the ongoing efforts at a wide range of institution types 
and sizes, including: large and small; public and private, four-year 
and two-year; community colleges and research institutions.
    It is clear that we must continue to work on improving these 
systems. While the senior student affairs officer often leads crisis 
planning and response on campus, other student affairs administrators 
participate daily in various aspects of response and communication 
utilizing institutional protocols. Situations are documented and occur 
with great frequency. These situations occur on campuses across the 
country without fanfare and with no media exposure, and result safe 
outcomes for the students, friends, and family. Actions include 
interventions that maintain reasonable privacy and allow for students 
to successfully resume typical college activities once the presenting 
issues are addressed, often without the stigma that more public 
responses may cause.
    As student affairs officers look at old technologies such as 
bullhorns and public address systems as well as the latest technologies 
of e-mails and text messages, we must devise systems of swift and clear 
communication to give students the information they need to make 
informed decisions. Still, the decision to communicate and what to 
communicate must be made by well-informed, well-prepared authorities on 
each campus or in each community. We must be sure behaviors outside the 
norm are duly noted and responded to in a timely manner. We must work 
diligently to address communication issues and elicit critical feedback 
across campus, including information from colleagues on the faculty, in 
other administrative departments, in residence halls, and other areas 
in each of our institutions.
    Even the best-managed institutions cannot completely eliminate the 
risk of a catastrophe. But by addressing such risks thoughtfully, 
institutions can increase their preparedness. When a concerned parent 
called me on the morning of September 11th, he asked, ``How are YOU 
going to protect my daughter?'' My reaction was genuine. ``Sir, we have 
not been able to protect the Pentagon today.'' You can see how it would 
be irresponsible of higher education to make any promises in terms of 
our ability to absolutely protect the safety of each and every student.
    As Student Affairs professionals play a significant role in 
establishing and implementing effective systems which successfully 
address a large majority of situations, we still face significant 
challenges regarding the mental health of our students. While we work 
with the boundaries and expectations of current laws the focus must be 
on education and understanding the varied individual student priorities 
as well as the different communities and campus cultures which exist. 
As educators, we, too, are always learning and are committed to 
improving our institutional systems.
    Our college campuses are places that encourage free and open 
discussions and intellectual debate. We have come to treasure their 
open borders and the freedoms they give our young people as they 
develop into productive young adults. We cannot begin to close down 
that access. We cannot change the very nature of these institutions in 
our attempts to protect our children. According to a recent issue of 
U.S. News and World Report (April 30, 2007) despite the massive numbers 
of students enrolled and the growing diversity of our campus 
environments, college and university campuses remain among the safest 
places in America. Student affairs professionals in many roles and 
responsibilities work tirelessly and partner assertively across many 
institutional lines to contribute to a very positive and productive 
learning environment for all students.
    Thank you for this opportunity to represent the very important 
roles embraced by my colleagues on campuses across the country and 
around the world.
                                 ______
                                 
    Chairman Miller. Thank you to all of you for your testimony 
and for your participation.
    I would like to pose a question to Mr. Healy and to Dr. 
Cornell, if I might.
    I think the suggestions made here and the suggestions that 
others have made to other committees sort of tell us that a lot 
of different things have to be done. There is not a single 
answer here, and you have all alluded to that aspect.
    On this question, Dr. Cornell, of the threat assessments, 
what intrigues me is the idea that you sort of have an ongoing 
learning process as you engage these students in the effort to 
eradicate that threat or to assess the probabilities and deal 
with the individual cases, as you have done in the Memphis 
schools. It seems to me that you have somewhat of an adaptive 
model here where you are sort of continuously learning and 
improving about students on campus, be it high school and/or 
college.
    I notice, Chief Healy, in your statement, you talk about, 
as one of the recommendations, aggressive leads to promote 
IACLEA's threat and risk assessment tool developed through the 
Department of Homeland Security. You mentioned that you did 
some of your work through safe and drug free schools, and I 
just wondered: If we are here to help, how do we work to build 
a synergy into that process? Because it seems to me that it is 
a model. The threat assessment and risk reduction is a model 
that can work both in elementary secondary schools and in 
college. I do not know if I am correct in that, but that is my 
assumption. I will just ask if you might comment on that. You 
sort of both came to the same conclusion, and I just----
    Mr. Healy. Yes, sir.
    As to the first part, I want to make sure I make a 
distinction between the IACLEA threat and risk assessment and 
then the behavioral threat assessment because there are some 
differences in the two.
    The IACLEA threat and risk assessment tool primarily deals 
with physical security threats, and it has a decidedly all-
hazards approach, so it deals with a whole spectrum of threats. 
The other point that I made in my statement was that we needed 
to expand the previous studies that have been done on the K 
through 12 rampage shooting incidents to colleges and to 
universities.
    Last week, I met with the Secret Service and the FBI to 
solicit their assistance in trying to expand those studies that 
have been done, which are very good studies, by the way, but 
they are not campus-focused. So what we are asking them to do 
is to review ten past shooting incidents that have occurred on 
college and university campuses and to apply the same 
methodology, and hopefully, some of those best practices will 
be the same, but we believe that there are some nuances because 
colleges and universities are obviously different from K 
through 12 settings.
    Mr. Cornell. Let me just say that, when the FBI and the 
Secret Service recommended that schools have threat assessment 
teams, most educators had no idea what they were talking about 
because threat assessment is a law enforcement concept, and it 
needs to be an education concept as well, but schools are 
learning; schools had to learn to develop crisis response 
plans, and now every school has a crisis response plan. Well, 
prevention is different than crisis response. Prevention starts 
long before you have a gunman in your parking lot.
    So what we need to move schools to is the process of now 
recognizing that they also need a threat assessment program in 
their schools. Threat assessment ought to be a part of every 
school's comprehensive safety plan that starts with prevention 
and works right up through the crisis and the aftermath of a 
crisis, but with threat assessment, we identify kids long 
before they are armed. We identify them when they are victims 
of bullying, when they are depressed, when they are developing 
symptoms of mental illness, when they are in conflicts 
repeatedly that frighten their peers and frighten their 
teachers, and we take a problem-solving approach to identify 
those problems and to resolve them early.
    If you look back at the history of the kids who have 
committed school shootings, both in colleges and off college 
campuses and communities, we see these kids in middle school 
having repeated serious mental health and adjustment problems; 
we see them in high school having problems, but what we do not 
have is sort of the infrastructure and the orientation that 
they are communicating a threat, that that threat signifies a 
problem and that we need to intervene and work to resolve that 
problem.
    Chairman Miller. If I just might--my time is running here. 
You cite that the Memphis City public schools have been able to 
resolve more than 200 threats. I assume that includes a 
successful referral to some support service for problems that 
that student is encountering.
    Mr. Cornell. Absolutely.
    Chairman Miller. So they have built up a base of referral 
services?
    Mr. Cornell. They ask us to come and teach them the threat 
assessment model. They adapt it for their urban, large public 
school system. When students made very serious threats, they 
were referred to their central mental health organization 
within the school system. They did an assessment and came up 
with an individual plan for each student. It might involve the 
referral to an alternative school, a referral for mental health 
treatment, conflict resolution, a variety of different 
interventions individualized to that student to resolve the 
problem that they were having, okay? And they had 200 cases in 
their first year, all of which they were able to resolve.
    Chairman Miller. Thank you very much.
    Mr. McKeon.
    Mr. McKeon. Thank you, Mr. Chairman.
    I thank each of you for your testimony. This is a very 
serious issue all of the different kinds of disasters that 
could confront us, and then there are the different sizes of 
schools and the areas that they are located in--their 
geography. Trying to deal with this from Washington, D.C. kind 
of boggles my mind.
    Could each of you tell us what size your school is? We will 
start with Mr. Healy.
    Mr. Healy. Yes, sir.
    We have 4,200 undergraduate students, 2,000 graduate 
students and approximately 5,500 staff and faculty, so we are a 
community of about 12,000 people.
    Mr. McKeon. In what kind of a setting?
    Mr. Healy. We are in a--I call it a suburban sitting on 
steroids. Congressman Holt can attest to that as well. We are 
also located on approximately 600 acres, and we have 160 
buildings.
    Mr. McKeon. Okay. Dr. Kennedy.
    Ms. Kennedy. At Cal State Northridge, we have 34,000 
students on 369 acres with about 200 buildings. We are in a 
suburban setting. The campus is open on various sides with 
public safety people in the entrances but also with temporary 
people in those entrances as well.
    Mr. Cornell. The University of Virginia has over 20,000 
students, but we have trained schools with as few as 20 
students to schools as large as the Memphis City public schools 
where they have 270 schools.
    Ms. Walbert. Arcadia University is in a suburb of 
Philadelphia. We have 55 acres, 3,400 students, about 300 to 
400 employees who are there full-time, and we also own some 
property adjacent to campus but not on that network of 55 
acres.
    Mr. McKeon. Dr. Cornell, you said you have trained schools 
with as few as 20----
    Mr. Cornell. Yes.
    Mr. McKeon [continuing]. And as large as 270----
    Mr. Cornell. 270 schools with, you know, thousands of 
students.
    Mr. McKeon. Each of you come from very large schools. You 
would have the resources to have the safety personnel and the 
security personnel. A school of 20 people, what could they do 
in the way of setting up a program?
    Mr. Cornell. In each school, there is an administrator, a 
principal; there is a psychologist or counselor, and there is a 
law enforcement officer and maybe a law enforcement officer 
from the community who is a liaison. As long as you have 
covered those three bases, you can have a team that deals with 
the issues in your school.
    Mr. McKeon. In dealing with your colleagues from around the 
country and in working on these programs, do you feel that we 
are doing a fairly good job of this on these campuses, at these 
schools?
    Mr. Healy. As other witnesses have stated today, I think we 
do a really good job of preventing, and we never hear the 
stories of prevention. I would say that we do need to take the 
lessons that we have learned from the K through 12 studies, and 
there have been significant resources dedicated to studying K 
through 12 situations. We have not done the same for colleges 
and universities, and I really urge you to consider funding 
research by the Secret Service and by the FBI so we can take 
the K through 12 model and adapt it for the college and 
university environment. Our environments are vastly different, 
and we do not have the same control over students as they do in 
the K through 12 environment, so I think it is very important 
that we understand that, while there is work that the Secret 
Service and the FBI have done on the K through 12 issues, we 
really need to adapt that for the college and university 
environment.
    Mr. McKeon. Now, the Secret Service and the FBI would be 
looking at what kind of disasters or potential disasters?
    Mr. Healy. Specifically, we are talking about the active 
shooter situations. The study that I am citing is the Secret 
Service Safe Schools Initiative and the FBI threat assessment 
model, and those models are the models that I suggest that we 
take an additional, more deliberative look at the campus 
scenario and see how those lessons apply.
    Mr. McKeon. Then the earthquake, the Katrina-type disaster, 
the disaster that happened just recently in Kansas with the 
tornado, all of those kinds of things would be excluded from 
that. That would also require some effort and some kind of a 
program to assess those problems, too.
    Mr. Healy. Yes, sir. The IACLEA threat and risk assessment 
tool that was funded by DHS is a great document that really 
allows campuses to take a holistic examination of all of their 
vulnerabilities, and it is an all-hazards approach, and so we 
believe that this document is a very strong document. We also 
have a campus preparedness resource center that is located on 
our Web site where colleges and universities can download model 
emergency operations plans. So there have been considerable 
investments made in the all-hazards approach. Of course, we can 
always do more.
    Mr. McKeon. Can I have just one short follow-up on that?
    We have about 6,000 just higher ed schools that participate 
in the Federal financial programs and then they go K through 
12. Do these schools all know of this Web site, of this 
availability?
    Mr. Healy. We are doing everything that we can to make sure 
that they know. We represent approximately 1,100 higher ed 
institutions. Any college or university can access that 
information. We do not exclude any.
    Mr. McKeon. It is just getting the word out.
    Mr. Healy. Exactly, sir.
    Mr. McKeon. Thank you very much.
    Chairman Miller. Mr. Kildee.
    Mr. Kildee. Thank you, Mr. Chairman.
    Mr. Healy, I am addressing this question to you as the 
President of the International Association of Campus Law 
Enforcement Administrators.
    In my city of Flint, we have two prominent universities--
Kettering and, exactly 1 mile away, the Flint campus of the 
University of Michigan.
    In Michigan, private institutions of higher education do 
not have the authority to establish a Department of Public 
Safety composed of sworn police officers. So, at the University 
of Michigan, they have a fine department of public safety with 
a number of police officers all trained, all sworn. At 
Kettering, they do not have that. That must vary throughout the 
country. Princeton is a private institution. Yet, you have your 
own police department.
    Are these sworn officers?
    Mr. Healy. Yes, sir. My department is what we call a 
``hybrid department.'' we are partly--50 percent are sworn 
police officers. The other half are nonsworn public safety 
officers.
    Mr. Kildee. They are sworn, and they work for Princeton?
    Mr. Healy. Yes, sir, they work for Princeton. What you 
find, sir, is, across the country, based on whatever the State 
law is, the State law will dictate whether a private or a 
public institution can actually have sworn police officers at 
their institutions.
    Mr. Kildee. You answered my question. I was going to ask 
that. That varies then from State to State. So the State of 
Michigan could authorize that of the University of Detroit, a 
Jesuit institution, or Kettering. We have a large number of 
private institutions in Michigan.
    So, in your organization then, you would find two types of 
police forces--one for the public institutions and others for 
the private institutions?
    Mr. Healy. Yes, sir. Really, the distinctions that we make 
are between the sworn officers--the police officers--and the 
nonsworn officers. Again, I think, if you were to take a survey 
across the country, you would see that it is about 50/50. About 
50 percent of the institutions have sworn law enforcement 
officers while 50 percent have nonsworn security officers. In 
fact, some institutions actually contract their security 
services to companies, to local police, to state police. So we 
are a very diverse community, but we believe that many of the 
tools that we are providing to these institutions allow them to 
enhance their public safety posture regardless of whether they 
are sworn or nonsworn.
    Mr. Kildee. But as there is a mixture throughout the 
country, in some States, a private institution could have its 
own department of public safety and could have the power to 
swear them in as full police officers?
    Mr. Healy. Yes, sir. I have worked in three States; New 
Jersey, Massachusetts and New York. In each of those States, 
private institutions were able to have police departments.
    Mr. Kildee. Thank you very much.
    I yield back, Mr. Chairman. Thank you.
    Chairman Miller. Mr. Keller.
    Mr. Keller. Thank you, Mr. Chairman.
    Dr. Cornell, who would you consider to be two or three of 
the leading experts in the country when it comes to threat 
assessments for mass murders if we wanted to hear from those 
folks?
    Mr. Cornell. I would prefer to give you a somewhat longer 
list than their credentials and depending on their orientation, 
and but I would certainly speak with folks from the Secret 
Service and from the FBI, who both have excellent----
    Mr. Keller. I do not need a list. I am pretty familiar with 
who they are. Have you heard of Dr. Park Dietz?
    Mr. Cornell. Sure, I know Dr. Dietz.
    Mr. Keller. Do you recognize him as a world leading expert 
in the area of threat assessment?
    Mr. Cornell. Yes.
    Mr. Keller. He testified in the John Hinckley case and in 
the Jeffrey Dahmer case.
    Mr. Cornell. Yes.
    Mr. Keller. Are you familiar with John Douglas, the former 
head of the FBI's Behavioral Science Unit?
    Mr. Cornell. Yes.
    Mr. Keller. Do you consider him an expert on things like 
profiling and threat assessment?
    Mr. Cornell. I do not know him as well as Dr. Dietz.
    Mr. Keller. Okay. Are you familiar with Dr. Jamie Fox at 
the Northeastern University in Boston?
    Mr. Cornell. Yes.
    Mr. Keller. Is he someone who is familiar and who is an 
expert in this area?
    Mr. Cornell. Yes.
    Mr. Keller. Okay. Isn't there somebody at the University of 
Virginia who is sort of famous? I believe he has a MacArthur 
Foundation grant, and the name escapes me.
    Mr. Cornell. Dr. John Monahan.
    Mr. Keller. Dr. John Monahan.
    Do you consider him a leading expert?
    Mr. Cornell. Yes.
    Mr. Keller. Okay. I am familiar with all of those issues 
based on my prior work in dealing with mass murders, and I have 
spoken in depth with all of them.
    My concern is if we lined all of them up--and by the way, 
those are the four I would consider to be the leading experts 
in the world on threat assessment for mass murders--and I said, 
``here are some facts about these three students who are 
freshman at a school, and they are all narcissistic, and they 
are all sort of crazy, and I want you to tell me if 4 years 
from now these four students will commit violence,'' I would 
submit to you that none of them would be able to predict with 
mathematical certainty 4 years later which ones would commit 
violence who have a pretty good idea if violence is going to 
happen within a couple of hours based on recent and specific 
threats, but I think it would be very difficult for them to 
predict 4 years later that one of these students, based on what 
they have heard, is going to commit violence.
    Is that fair to say?
    Mr. Cornell. That is very fair to say. That is profiling as 
opposed to threat assessment.
    Mr. Keller. All right. So my concern is that we could spend 
a bunch of money on threat assessment and teaching students and 
school officials in this area, but if the world's leading 
experts are not going to be able to predict violence 3 or 4 
years down the road, I am not sure these students are. What I 
think--and I will be happy to also ask Mr. Healy about this--is 
that the keys for threat assessment and for preventing mass 
murders on college campuses are three.
    First, there must be systems at places on every single 
college campus that would allow the students and the faculty 
and the dorm advisors to be able to talk to someone about a 
troubled student in a confidential, anonymous manner so they 
are not afraid of being killed.
    Two, that college must have some system in place that that 
report of a threat doesn't fall through the cracks. And, three, 
that college must have the ability to take action to remove 
that student where appropriate without fear of being sued by 
that student or his family.
    Mr. Healy, do you want to address that?
    Mr. Healy. Yes, sir. I think you just described the 
behavioral threat assessment model. This is the model that we 
are recommending; this is the model that the FBI recommends in 
their threat assessment process. All of these systems are 
obviously very necessary in our environments. You have to have 
ways for people to speak in confidentiality. That is part of 
the threat assessment model. You have to have ways for everyone 
in the community to identify and then report actions that are 
troubling for a particular reason, and then you have to have an 
ability to take action to either get help for an individual, or 
if that individual needs to be removed from the community, to 
remove him from the community.
    Mr. Keller. Let us take Princeton, for example. You have a 
freshman sitting in class, and he makes a statement overheard 
by one of his peers that, man, I really hate this teacher. I 
would like to kill him some day. And I don't like Sally sitting 
in the front row because she is a teacher's pet; maybe I should 
take her with him.
    What system would be in place for that student who 
overhears that to report to the appropriate Princeton official?
    Mr. Healy. I think that that individual would feel very 
comfortable talking either with their RA or their dean. We have 
residential college systems, so I think they would feel very 
comfortable speaking with their dean in their residential 
college or with their director of studies.
    Mr. Keller. Anonymously even, to protect themselves if they 
have to?
    Mr. Healy. Yes, sir.
    Mr. Keller. What system is in place to make sure once that 
resident or official hears it, that it doesn't fall through the 
cracks?
    Mr. Healy. That information would be shared with the dean 
of students office. If we needed to convene a team to discuss 
that particular action--I doubt if we would in that particular 
situation--but if we needed to do that, we have a system in 
place to do that.
    Mr. Keller. Finally, would there be concerns about you 
being sued by the student or their family who made that weird 
sort of threat?
    Mr. Healy. There are always concerns about being sued, but 
I don't think that stops us from taking action when action 
needs to be taken.
    Mr. Keller. Thank you, Mr. Chairman. My time has expired.
    Chairman Miller. Mr. Andrews.
    Mr. Andrews. I thank the witnesses for their testimony.
    Mr. Healy, we are very proud of New Jersey to have a great 
university like Princeton within our borders, and we thank you 
for being here this morning.
    You talk about your organization's creation of standards 
and the application of those standards to a certification 
process, and you make particular reference on page 3 of your 
testimony for the need for mass emergency notification systems 
that have appropriate capacity, security redundancy and 
reliance to reach your community members in a hurry; so a 
texting system or cell phone system.
    Do you think that this committee--I won't ask you to 
testify for your organization, but do you think this committee 
should require that colleges and universities receive 
certification from an organization such as yours in order to 
receive Federal support? Should we require this kind of 
certification?
    Mr. Healy. Sir, I believe that our accreditation program is 
in its infant stages, and I would like to think that at some 
point down the line, maybe 10, 20 years, that the program would 
be mature enough to then mandate accreditation standards for 
all campus public safety agencies. As you know, accrediting for 
institutions has been around for a very long time. Our program 
has not been around that long, and I wouldn't suggest that we 
jump into mandating it at this early stage.
    Mr. Andrews. Do you think States or Federal Governments 
should mandate campuses to have the kind of emergency 
communication systems that you cite?
    Mr. Healy. I think that campuses and universities should 
surely evaluate their needs and implement systems that meet all 
of the parameters that I cited in my statement. Obviously I 
think that is a very important initiative. Whether a State 
should mandate that, I don't really know.
    Mr. Andrews. In your years of experience in campus 
security, have you ever run across a situation where the 
student privacy laws have precluded you from gaining or sharing 
information you thought was necessary to protect the campus?
    Mr. Healy. Sir, we are always concerned about FERPA, the 
Buckley amendment and also the HIPAA provisions. I can tell you 
that there are exceptions for law enforcement emergencies and 
health and safety emergencies in FERPA, and so that hasn't 
affected, but I know my colleagues at the universities are 
often concerned about that.
    Mr. Andrews. In your own experience have you used those 
exceptions to share information with interested parties?
    Mr. Healy. Absolutely.
    Mr. Andrews. Has there ever been a situation where you have 
wanted to use that information but felt precluded because legal 
counsel told you you couldn't?
    Mr. Healy. Not that I can recollect, sir.
    Mr. Andrews. Dr. Cornell, I am very impressed by what you 
had to say, and I wanted to cite one thing in particular on 
page 3, talking about mental illness issues for students. You 
say: Our Nation suffers from poor insurance coverage for mental 
health services and from poor communication and coordination 
among these services. Even when we know someone needs 
treatment, there is no effective mechanism to make sure the 
treatment is delivered and no follow-up to make sure it was 
effective. College campuses see a substantial number of 
students with serious mental health problems, yet their 
staffing levels and resources are focused on short-term 
counseling.
    One of the bills that this committee will be considering is 
a bill sponsored by Congressman Kennedy from Rhode Island and 
Congressman Ramstad from Minnesota which would require health 
insurance companies to offer mental health services on the same 
basis on which they offer physical health services. So if there 
is a $500 deductible for a broken leg, there can't be a $15,000 
deductible for someone seeking treatment for bipolar disorder. 
Do you think we should adopt such legislation?
    Mr. Cornell. I am not entirely familiar with the bill, but 
I strongly support the concept that mental health services 
should be treated with parity with so-called physical. The 
distinction between physical and mental disorders is more in 
appearance than in substance. The more we learn about 
disorders, the more we understand that there are both physical 
and psychological components to all of these disorders.
    Mr. Andrews. I agree with you, and I think it would be 
sadly ironic if we had a good system in place that identified 
students who are troubled and took appropriate legal action to 
deal with them and then didn't have the resources to deal with 
their problems, and their problems wound up manifesting 
themselves in violence. I, by the way, do not mean to imply 
that students who need mental health services are always, often 
or even sometimes violent, but sometimes it does lead to this.
    Mr. Chairman, I know that is one of the issues that we are 
looking at in our jurisdiction. Thank you very much.
    Chairman Miller. Thank you.
    Mr. Davis.
    Mr. Davis of Tennessee. Thank you for being with us today. 
I appreciate each one of your testimony.
    Mr. Healy, I would like to start with you. You talked about 
the accreditation program. If you could tell me how many 
institutions have actually applied for accreditation.
    Mr. Healy. We currently have 11 institutions that are in 
our accreditation program. The program, again, is still in its 
infant stages.
    Mr. Davis of Tennessee. Could you expand a little bit on 
some of the standards that will be evaluated in your 
accreditation process?
    Mr. Healy. Yes, sir. The standards, there are approximately 
225 standards. They range from the certification of the 
officers all the way to the crime prevention practices that you 
are required to implement as a result of the program. So it is 
kind of a broad range. It includes critical incident response, 
communications systems, dispatching services, training in crime 
prevention, obviously compliance with the Clery Act. So those 
are kind of a broad range.
    They are basically broken down into four different 
categories: administration, operations and patrol, 
investigations, and then crime prevention.
    Mr. Davis of Tennessee. Thank you.
    I would like to ask this of each of you, if you would: 
Given the tragic events that took place at Virginia Tech and 
then the other events like the earthquakes and tornadoes and 
hurricanes, if each one of you could just tell me if you are 
taking time to reevaluate your safety programs, and if so, what 
you are doing.
    Ms. Walbert. We certainly are, and I think most 
institutions are using any incident that occurs for an 
opportunity to review what it is we need to know, whether it is 
about how we communicate with our constituents, how we respond 
to individual situations. Each of those items take away 
sometimes time from doing some of the other things that are 
very important to intervene. At the same time, we learn from 
every situation, and we can build on what has come before us on 
our own campuses, recognizing the communities that we are in.
    Mr. Davis of Tennessee. Thank you.
    Dr. Cornell.
    Mr. Cornell. I am not here representing the University of 
Virginia.
    Ms. Kennedy. I think one of the things we put in place are 
emergency systems, and we also do scenarios related to the 
shooter incidents or natural disaster incidents. Each of the 
campuses, the 23 campuses within the CSU, take part in these 
activities. We also have the crisis intervention piece together 
with the student affairs, the public safety people and others, 
and there are practice sessions that go on. Because we are also 
concerned about natural disasters, each of the departments and 
areas maintain a supply of water, food and safety equipment at 
the local level so that in the event of any kind of a disaster 
where people have to--are looking for those kinds of things, 
that they can be found in multiple locations.
    Mr. Davis of Tennessee. Thank you.
    Mr. Healy. Yes, sir. Again, I do think that all 
institutions are taking a step back to evaluate their emergency 
management plans. I know that we have done that at my 
institution. Because I obviously monitor the list for our 
association, I know that all institutions are concerned about 
this. We are very fortunate that we have in IACLEA a model 
emergency operations plan so that when institutions are 
evaluating their own plans, or if they are just starting to 
write a plan, they don't have to start from ground zero; they 
can use the our model plan and also use our incident command 
training, which is very important as well. It is important for 
multiple agencies to be able to respond in an effective and 
seamless fashion, and our incident command training allows 
that, and we are rolling that out around the country.
    Mr. Davis of Tennessee. Do you work collaboratively with 
colleagues across your States or across the country and work on 
best practices and benchmarking and those type things that you 
would do in business?
    Ms. Walbert. I would say absolutely. NASPA and the other 
professional associations that I represent today provide all 
sorts of educational opportunities where we share our best 
practices, we challenge one another. We think about the 
differences that we each bring, as were mentioned earlier, in 
terms of the types of campuses that we have, learning about 
alcohol-related issues, mental health issues, the legal 
aspects. We learn as much from one another who have experienced 
other things as we do from conversations and educational 
opportunities.
    Mr. Davis of Tennessee. Thank you.
    Chairman Miller. Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Dr. Cornell, is there a consensus in your field that 
substantially more research needs to be done in violence 
prevention?
    Mr. Cornell. There certainly is.
    Mr. Scott. The threat to students, is the threat from other 
students and staff or from the outside? From the events that 
have occurred, how many have occurred from someone outside of 
the college community coming in and creating the threat, and 
how much of it is within the college community?
    Mr. Cornell. Well, certainly both are of concern, and 
perhaps Mr. Healy could address this more definitively than I, 
but my understanding is that most of the college campus crime 
occurs from outside of the formal campus.
    Mr. Scott. Mr. Healy.
    Mr. Healy. Sir, if you are specifically addressing what we 
would consider an active shooter or rampage shooting incident, 
of the ones we have identified, it is about 50-50; 50 percent 
have been conducted by outsiders, another 50 percent by people 
who are within the community. I would like to note, however, 
that the age difference is very variable in the college and 
university environment. Many of the active shooters have been 
either graduate students or much older.
    Mr. Scott. Dr. Cornell, we have gone back and forth about 
your ability to identify which individual might in the future 
cause a problem. Everyone with a mental health issue is not a 
threat to public safety. You indicated a difference between 
threat assessment and profiling. Can you elaborate on that?
    Mr. Cornell. Thank you for bringing this up. This is a very 
important distinction. All of the experts that Congressman 
Keller cited are important experts, and I think all of them 
would agree with me that threat assessment and profiling are 
different procedures. Profiling involves looking for long-term 
predictions, trying to see far into the future based on an 
individual's background and characteristics.
    The FBI's own profiling unit, including John Douglas, 
concluded that profiling was not appropriate for school 
shooters, but they recommended threat assessment, which is a 
more immediate procedure that identifies individuals who have 
identified themselves by virtue of making a threat or engaging 
in some kind of threatening behavior.
    We have much more success at distinguishing individuals who 
have made threats and how serious and dangerous they are than 
individuals who are involved in profiling. Dr. Deitz, for 
example, has a threat assessment business that he operates, so 
certainly he endorses the concept of threat assessment. So this 
is an important distinction and one that we emphasize in our 
training.
    Mr. Scott. In high schools bullying is a major issue in 
terms of violence prevention. Is that as much a problem in 
college?
    Mr. Cornell. Bullying probably peaks in middle school and 
declines through adolescence, but bullying, social bullying, is 
still a very prominent issue in colleges. Individuals segregate 
themselves into social groups, individuals come to feel 
alienated and withdrawn, and we see the development of adult 
mental illnesses in those years that complicate the bullying 
problem.
    Mr. Scott. Expulsion in high school is often 
counterproductive. Is it as much a counterproductive issue in 
college?
    Mr. Cornell. It certainly is for the students.
    Mr. Scott. What about for public safety? If you expel a 
high school student, they are out in the street and can cause 
as much aggravation out there. Is there as much of a problem 
for public safety for the college students if you expel too 
often?
    Mr. Cornell. Absolutely. Expulsion is sort of a short-term 
solution for the school, but it is not a solution for the 
student or the community as a whole.
    Mr. Scott. What problems happen when you expel people 
unnecessarily?
    Mr. Cornell. The American Psychological Association's Task 
Force on Zero Tolerance looked at expulsion research and found 
basically it is associated with declining achievement and a 
higher dropout rate among the individuals that are expelled. It 
does not improve the safety of the school or the climate in the 
school, so it is not a very effective solution.
    Mr. Scott. Thank you.
    Mr. Healy, you mentioned communication. Some things cost a 
lot of money, some things don't. Do most college student have 
cell phones?
    Mr. Healy. Yes, sir.
    Mr. Scott. Virtually all have computers.
    Mr. Healy. Yes, sir.
    Mr. Scott. You can send a message out instantaneously; is 
that right?
    Mr. Healy. Yes, sir. Most of the systems that are currently 
on the market are instantaneous.
    Mr. Scott. If you send out an alert like something at 
Virginia Tech, what would the alert say, and what would the 
students do?
    Mr. Healy. Sir, I don't want to address specifically what 
they did or what they could have done there. I know in our 
situation we would try to send information to advise 
individuals what to do as a situation unfolds. Again, these 
messages--and as situations evolve, that is why it is so 
important to have a system that you can push out information as 
quickly as possible because of repeated information and updated 
information. Again, this would serve as a way to provide 
information so that people can take steps to do what it is that 
you need them to do, but also to control rumors and try to 
maintain a sense of order on campus.
    Sir, unfortunately, there are a lot of companies in the 
wake of the very tragic incident of Virginia Tech, a lot of 
fly-by-night companies out there, and it is very unfortunate. 
That is why it is very important for colleges and universities 
to understand what the features of those systems are so that 
they are not throwing their money away.
    Chairman Miller. Mr. Boustany.
    Mr. Boustany. Thank you, Mr. Chairman.
    First a few comments and then a question. It seems to me 
that we don't want to create a Federal bureaucracy to deal with 
this, and given the diversity of so many institutions and size 
and locations and so forth, having those institutions develop 
multidisciplinary plans that are very comprehensive, that 
incorporate elements from the community would be important, as 
you have all mentioned.
    You have all given very excellent testimony and answered 
some very good questions with very informative answers.
    Certainly plans would include threat assessment, 
prevention, response, and oftentimes with plans, when they have 
to be implemented, they don't really work as well as everyone 
would hope. We saw this in my home State of Louisiana after 
both Hurricanes Rita and Katrina. And scenario planning and so 
forth, exercises I think are also very important.
    One question I have, and Mr. Andrews raised the issue of 
mental health, every community is plagued with the lack of 
mental health resources across this country. We all know about 
the disparity in the way insurance treats it. These issues we 
are going to try to deal with as we go forward.
    But it struck me as I was listening that our universities 
and colleges have a resource that we may be underutilizing, and 
that is virtually all have psychological departments, and are 
those psychological departments being utilized in a more 
extensive way in a counseling process; as you look at your 
plans and go through prevention and so forth, are you using 
those resources to the fullest extent on campus?
    Ms. Walbert. I think it is important that there is a 
distinction made between the role that the psychology faculty 
play in teaching and the role we talked about in counseling. It 
is very clear a faculty member who is an expert clinical 
psychologist not be in a counseling relationship with a student 
that they are teaching. On a campus like ours, our psychology 
program is very strong, and when we have had emergencies, we 
have used the expertise that exists on that psychology faculty 
to help us think about other resources and relationships that 
we have, but we do not use them directly for the counseling 
role with the students.
    Mr. Boustany. I would ask that that might be considered and 
look at possible best practices, share your information, 
because it may be worthwhile. It just seems to me that this is 
a resource on our campuses that may be underutilized in this 
effort. I do recognize the difference between research and 
teaching versus clinical psychology, but just about every 
campus does have clinical psychology and counseling, master's 
programs in counseling, which is a clinical discipline.
    It just seems to me that that is an area that we need to 
look at a little bit more and maybe share some best practices.
    Ms. Walbert. Sir, if I may, I do believe that we really 
need to be very cautious on that matter, in large measure 
because of the confidentiality of the relationship if the 
faculty member is also in a position to grade a student. The 
systems that we need need to be built around the network for 
the student free from that academic pressure. So using them as 
resources and experts is critical in terms of any of the 
faculty on our campuses, psychology, including other areas as 
well.
    Mr. Boustany. I understand that potential conflict, but it 
seems to me that there should be a little bit more 
investigation into--any campus as to how those resources could 
be used.
    Dr. Cornell, do you have any comments, being a 
psychologist?
    Mr. Cornell. Yes. Obviously you are correct that there are 
some academic psychologists who would not be prepared or 
trained to do clinical counseling, but at the University of 
Virginia we have clinical psychologists who also work in a 
clinic that does provide counseling and clinical services to 
the student population and the general community, so it can be 
worked out. There are complications, as Dr. Walbert mentions, 
but I think in many universities the clinical psychologists on 
the ground also are involved in some capacity with their mental 
health services.
    Mr. Boustany. Thank you.
    Dr. Kennedy.
    Ms. Kennedy. Within the CSU we have a comment that we 
consider to be odd students, and we don't mention the student's 
name. And we bring together public safety, counseling, people 
from the clinical psych area to talk about student A, for 
example, and to bring together all the information that we 
have, and then to try to identify what would be a plan relative 
to that, and then that gets carried out in a designated way 
depending on the degree of threat. I think that is quite 
common. I know within the CSU it is a common practice.
    Mr. Boustany. Thank you.
    I would just say, given the paucity of mental health 
services really nationwide and from community to community, we 
ought to leverage everything we have as we look at this effort.
    I thank you all.
    Chairman Miller. Thank you.
    Ms. Clarke.
    Ms. Clarke. Thank you very much, Mr. Chairman.
    Americans once had a sense of security in the basic 
institutions that were important in their lives. We used to 
think our churches and our schools were safe. Recently the 
tragic events at Virginia Tech have yet again reduced whatever 
semblance of sense of safety we had left.
    Equally as tragic is the daily violence encountered by 
students in our inner-city schools. In New York City alone, 
which is where I am from, there are a reported 654 serious 
incidents in schools categorized as persistently dangerous 
schools. These acts of violence point to the larger problem of 
school safety both at the secondary and postsecondary level and 
points to the importance of the creation of threat assessment 
teams of mental health professionals, educators, social service 
workers, law enforcement officials and others in key strategy 
in averting potential dangerous incidents.
    In fact, since the Columbine incident in 1999, much of the 
school safety literature has stressed the importance of schools 
forming these types of broad-based threat assessment teams to 
analyze threats and campus safety. However, schools seem to be 
a bit reluctant not only in the creation of such teams, but 
also on the creation and implementation of student alert 
systems.
    I want to direct my questions to the entire panel. I am 
looking at what has happened in New York City and how we can 
engage our educational communities in emergency preparedness 
and sort of expecting the unexpected. After 9/11 we had a lot 
of schools in the area of the World Trade Center, and after 9/
11 it seems as though that level of consciousness has still not 
quite awoken.
    For instance, New York City passed--well, the mayor 
basically passed a public school cell phone ban, so the types 
of messaging that you would talk about in the event of an 
emergency is not available to public school students, 
particularly high school students, and there is a concern about 
whether that technology is good in a public school setting, or 
does it present a larger threat in terms of violent 
interactions during the school day or after with gang members 
and things of that nature, sort of creating that balance.
    But how do we create a consciousness within the educational 
community and surrounding communities around expecting the 
unexpected, using threat assessment as a tool in an urban 
environment? Can I just ask you folks, particularly those of 
you who have larger environments in which you work or have had 
that experience?
    Mr. Healy. Ma'am, I believe that one of the ways that we do 
that is through professional associations like my own, by 
creating a sense of the awareness of what is available and 
making it easier for institutions to develop their emergency 
management plans. I don't think that there is any institution 
out there that doesn't want to engage in emergency management 
planning, it is just such a daunting task, and that is why 
resources like we attempted to provide in IACLEA are very 
helpful to help facilitate and move the process along.
    I do think that it is a critical role for the professional 
associations to reach out to their membership to ensure that 
they understand. It is also important for us to work together, 
and that is why we are constantly trying to develop closer 
relationships so that I can present at a NASPA conference and 
talk about the importance of emergency management, and someone 
at NASPA can present at one of our conferences, talking about 
working together with the student affairs professionals. So I 
think it has to be a collaborative approach.
    Mr. Cornell. Schools really have a tremendous burden, and 
with No Child Left Behind, many responsibilities that have to 
do with academic achievement and accomplishments there, and 
that is their first priority, and so it is sometimes difficult 
to provide them with the time, the energy and the funding to 
think about crisis response and threat assessment, which I see 
as two separate components.
    The Office of Safe and Drug-Free Schools, that funding is 
really critically important to schools being able to implement 
programs. In almost every school division that we have gone to, 
we have gone to 12 States, gone to hundreds of different 
schools, they use that Safe and Drug-Free Schools money to do 
their threat assessment training, to do their bullying 
prevention. And when that money is threatened, those programs 
go away.
    Ms. Kennedy. Yes, I wanted to respond, too.
    Within the CSU, given that we have almost half a million 
students that we are serving, and we also provide services to 
our local education, K-12 educational systems as well, one of 
the things that we do is we do provide violence, antiviolence 
training within the public schools. We do principals' training 
in the same way. And everyone within the system is trained to 
try to prepare themselves for disaster.
    The difficulty always is that you are prepared for the last 
disaster, and that when you mention the ability to plan for the 
unexpected, it is just not possible. You can put all the tools 
together, and you can bring that emergency preparedness action 
and crisis management to the event at hand, but I think it is 
very difficult to anticipate some of the things that actually 
do happen.
    Ms. Clarke. I think sort of key to responding is to have a 
tool that enables people to act. New York City decided to ban 
cell phones in its schools, and there has been a real debate 
around whether, in fact, it facilitates being able to address 
an emergency or it creates a crisis situation for those who 
would use it as a tool in order to promote some sort of violent 
action. Any response to that?
    Ms. Walbert. I would just say that we have had to 
communicate all the decades we have been around. Thinking about 
the best way to communicate is essential. We used to hang 
signs. That was all we had. Now we have other tools. But to 
assess whether or not they will accomplish the primary purpose 
in that particular case, that needs to be done in advance. That 
is how we can prepare to think about which tools we would use 
under which circumstances and what makes the most sense.
    Mr. Healy. I would just add, ma'am, that, of course, no one 
method is best. I think it really has to include several 
different methodologies and modes of communication. Some of 
those methods are as simple as hanging a sign, but obviously we 
have to continue to evolve as the technology evolves. We have 
to continue to add layers on so that we are then able to 
communicate.
    I think obviously with the issue around cell phones in K-
through-12 schools, that is an issue that has to be resolved. 
But cell phones are not the only way. I think K-through-12 
schools are much smaller than colleges and universities, much 
more contained. I think just the word of mouth is a very 
effective tool as well.
    Chairman Miller. The gentlewoman's time has expired.
    Mr. Heller.
    Mr. Heller. Thank you, Mr. Chairman.
    I want to thank everyone here today. Great discussion 
today. I certainly do appreciate your input.
    I wanted to direct some of my questions towards Ms. 
Kennedy. How large did you say your campus was again?
    Ms. Kennedy. Right now it is 34,000 students.
    Mr. Heller. Thirty-four thousand students. You had to live 
through earthquakes, and I understand how difficult that can 
be. I went to the University of Southern California. But for 
that reason I am looking at some of your issues and comments on 
emergency preparation plans. How long would it take you to 
evacuate your campus if you had to do so?
    Ms. Kennedy. It would depend very much on the time of day, 
the day of the week.
    Chairman Miller. Maybe take a week at the wrong time of 
day.
    Ms. Kennedy. Depends on the traffic. I couldn't really say. 
We have evacuated the campus at different times over utility 
crises where we had no electricity. We evacuated--we have done 
it over mudslides and other activities, and usually it has been 
around--my own personal experience, it has been around 4:00 in 
the afternoon, which means they can evacuate the campus, but 
not the area.
    Mr. Heller. Right, right. I didn't live through the Rodney 
King riots at the University of Southern California campus, but 
my sister-in-law did, and under that scenario they did try to 
evacuate the campus and had a difficult time even in the middle 
of the afternoon trying to get students off the campus. It was 
in the middle of finals. They were in the library, they were on 
campus, they were in their fraternities or sororities. Very, 
very difficult for them to get that evacuation and get that 
completed, and very concerned.
    In your emergency preparation plans, have you determined 
how long it would take to contact 100 percent of your students 
under an emergency situation?
    Ms. Kennedy. In an emergency situation we actually have a 
system of public address on the top of every building on the 
entire campus and including in the dorm areas, and so we can do 
a public address telling people where to go. We have automatic 
systems that go to the cell phones and go--not the cell phones, 
to the computers, everybody's individual account, giving them 
instructions. And then we have teams of people that will be 
located--that will move immediately to particular areas to tell 
people what to do. Residential people have one set of issues, 
the classrooms have another.
    Mr. Heller. Very good.
    Mr. Healy, you mentioned, or it has been mentioned, 
obviously, the technology of the laptop, cell phones, and I 
realize, as you mentioned, that no single technology is going 
to be a fix-all. But I will tell you as you move forward in 
this, and I think it is an intriguing idea, I would think that 
you could expand that. For example, as a parent sitting here 
with a child in the elementary school right now, that parent 
would also be notified. But not only students on campus, but 
those parents.
    I think that is one of the biggest concerns of what came 
out of the incident at Virginia Tech, was the lack of 
communications. I think if not only were the students, but the 
parents at the same time--I would love--if my child's 
elementary school today had to be evacuated, I would love to 
have that ring on my cell phone right now saying come pick up 
my child.
    Mr. Healy. Yes, sir. One of the factors that we will be 
asking our peers and our other campus public safety executives 
around the country as they look at purchasing such a system to 
consider is whether parents should be added to the system. I 
know, in fact, the system we have at Princeton actually started 
in the K-through-12 environment primarily for parents and has 
evolved into a system that is used in the higher ed. So I do 
know that those systems are used widely in K through 12.
    Mr. Heller. Thank you very much, Mr. Chairman.
    Chairman Miller. Thank you.
    Mr. Yarmuth.
    Mr. Yarmuth. I wanted to pursue the issue of the diversity 
of campuses a little bit. I come from a district, metro 
Louisville, and we have eight or nine different campuses, none 
of which I would say resembles Virginia Tech in the sense that 
they are very self-contained, very few residential students 
anywhere. And I worked at the University of Louisville for 3 
years, and it seemed to me that the approach to campus safety 
there was more of like a community police force, a community 
approach.
    So I am interested in the idea that we are using a K-
through-12 model to talk about safety when, at least looking at 
the variety of campuses in my community, it appears that it 
resembles more of a workplace model than it does an educational 
setting. Does that make this exercise meaningful in any 
respect, because I understand at least three of you come from 
large campuses. I don't know about Arcadia. We have campuses 
that you really couldn't call them campuses, institutions that 
are in high-rise office buildings. So it is exactly like a 
workplace setting.
    So I would like you to respond to how applicable these 
standards are.
    Mr. Healy. Yes, sir. That is why I think it is so important 
that we expand the previous studies that have been conducted in 
the K-through-12 environments to include campuses. I know I 
have said that several times because I am really committed to 
trying to make this happen. In fact, I mentioned that I met 
with the FBI and the Secret Service to gauge their interest in 
expanding their studies.
    But I do think that there are some particular nuances in 
college and university environments that may make some of the 
recommendations and some of the behavioral threat assessment 
models distinctively different in college and university 
settings, so that is why I really urge you all, as you consider 
funding for the Secret Service and the FBI or whomever, the 
COPS bill, that we set aside some money for this research 
because I think it is vitally important.
    Ms. Kennedy. I would just like to say that for the CSU we 
have small residential campuses as well as primarily commuter 
campuses. For Cal State North, for example, of those 35,000, 
only 2,200 are living on campus. The rest are living around, or 
they are commuting in. That is why I mentioned earlier on the 
time of day.
    But what our emergency preparedness has done as a system is 
to identify what are the needed systems that have to be in 
place depending on what that campus looks like, and that is 
what we have put in place. When we do the scenarios, the first 
one that was done on the possibility of a shooter, active 
shooter, was done at San Francisco State, which is an urban 
setting. We will now repeat that in a residential setting and 
in a mixed setting such as the one that I am most familiar 
with.
    So we are very conscious that a setting does create a 
different kind of response.
    Mr. Cornell. Again, there is an important distinction 
between the crisis response and threat assessment. Crisis 
response, the buildings matter a lot, and the location and what 
you are going to do, but that is an immediate situation. Threat 
assessment is prevention, and there the buildings matter less, 
and the people matter more.
    So when someone is engaged in threatening behavior, what is 
important is that you interview that person, you interview the 
witnesses, you contact the teachers, and you communicate among 
your staff. So it is more person-oriented.
    Now, threat assessment actually originated for workplace 
violence and for protecting our President, who is moving all 
over the world. So the issues of geography have been dealt with 
and overcome, so I wouldn't want to think that because we have 
got a model in K-through-12 schools, that we can't adopt it to 
colleges, because it has been used in tougher environments even 
than colleges already.
    Ms. Walbert. I would just add that the community you 
mentioned is critical on different size campuses, and 
understanding what the community that the institution resides 
in expects from that relationship is essential as well. We have 
many commuter students that we would have very different 
expectations of how we would contact them than the students 
that live on campus. Many institutions, over 4,000 
institutions, there are many different ways to pull those 
groups together and identify the best way to communicate and 
what the expectations of the students, the parents, the faculty 
and the staff that are there really are.
    Mr. Yarmuth. I guess I am just curious about how much the 
fact that it is an educational institution changes the safety 
dynamic in many of these institutions we are dealing with.
    Ms. Walbert. I think that gives us an opportunity to engage 
everyone in that environment, particularly at the collegiate 
level, educating that students have a responsibility for what 
happens in the community, to make that contact anonymously or 
otherwise if they are concerned about a peer or someone else. 
It gives us that leverage.
    Very few of our missions actually say we will keep students 
safe. We talk about education, we talk about the focus on the 
long-term citizenship of those students. We do want it in a 
safe environment.
    Mr. Yarmuth. Thank you.
    Chairman Miller. Mrs. Davis.
    Mrs. Davis of California. Thank you, Mr. Chairman.
    Thank you all for being here. I think it has been an 
excellent discussion. You have talked--maybe this is to the 
whole panel, but I think, Dr. Cornell, you have been speaking 
about the crisis response versus threat assessment. Is there a 
sense of proportionality here? If you were to look, all of 
you--if you were to look at what campuses are doing, would you 
be interested in knowing how much more in resources has been 
put into security measures in buildings versus thinking about 
the threat assessment, and what would that proportionality be? 
How would it be if I went to my campus, several major campuses 
in San Diego, for example, and asked them to tell me about 
those issues and whether or not adequate resources were being 
put into either one? How would you assess that? Is it equal, or 
is it in truth something else?
    Mr. Cornell. I would say most people think about crisis 
response when they think about the active shooter incident 
because that is very vivid and emotional, and they spend their 
resources on that, and it is a more expensive process because 
hiring security and equipment.
    Threat assessment is much less expensive. You train your 
staff, and they continue to do threat assessments. But I would 
say it is probably 90 percent focused on crisis response and 
security and much less on the sort of early prevention threat 
assessment.
    Mr. Healy. That is why I think it is so important for us to 
have this conversation, because one of the things that we try 
to tell our peers is that you do need an all-hazards approach. 
We need to consider all of the risks that we potentially face. 
Congressman Clarke was mentioning earlier it is hard to get 
people to imagine the unimaginable. That is what I am here to 
do. I have to help my institution, my peers have to help their 
institutions, imagine the worst possible scenarios.
    Now, that doesn't mean that you can plan or that you commit 
resources for every possible scenario, but you have to look at 
the likely, more probable scenarios and plan, and I do think 
that obviously this conversation is an important conversation 
and one in which we hope that people will begin to think not 
just about critical incident response, but also about 
behavioral threat assessment.
    Ms. Walbert. I would agree with Mr. Healy, but I wouldn't 
agree necessarily that everything is unimaginable. Many of the 
things that we deal with are very real. Dealing with the 
individual students in advance, reinforcing that connection, 
educating peers as well as faculty is essential in helping 
identify where those sources of problems may be. That may be 
where many of the resources need to go, and we continue to 
escalate.
    Mrs. Davis of California. I guess these resources, is it 
mostly in research or working within the institutions? Because 
I think, Mr. Healy, you mentioned that you monitor other 
institutions and what they are doing. I am interested in the 
obstacles that they face. Is it a mindset issue or a resource 
issue?
    Ms. Walbert. I would argue----
    Mrs. Davis of California. What is our role? How would you 
like to relate to it in order to raise the consciousness, 
whether it is the research or something else?
    Ms. Walbert. Pulling together research is very valuable to 
us, but not necessarily what we use on the ground day in and 
day out. And understanding that the decisionmakers have to 
think about the very real things that are happening in that 
environment at that point in time, whether it is after an 
earthquake or when a student comes in and says, I am worried 
about the person that was sitting next to me in class, that 
decisionmaking ladder has to be well-informed and clear and 
understood, and I think sometimes it gets fueled by other 
outside agencies, and we are trying really hard in being very 
effective at identifying the most important elements.
    Ms. Kennedy. I think what has changed as a result of our 
continued investment in both public safety and in the crisis 
management and threat prevention has been a coming together of 
the different units of the university in ways that had not 
happened before. I think when I first came into higher 
education, the last thing I would have thought is I would be 
meeting with a counselor, a public safety person, someone who 
is an expert in crisis management and facilities and talking 
about student issues and faculty issues and putting together 
counseling following events. But that is very common now on 
campuses. It certainly is very common within the CSU and within 
California, and it is between public and private agencies, 
between the police department and the local area, and when they 
are called by our police.
    Mrs. Davis of California. If I could interrupt, is it 
correct to say that when it comes to a credible threat, that we 
are using more tools at universities, and that personnel there 
actually know what to do with that threat and to reach out in 
some ways?
    Ms. Kennedy. Increasingly they know what to do with it, and 
they know how to reach out to the community because they have 
been practicing this over and over again.
    Mrs. Davis of California. Thank you.
    Chairman Miller. Mr. Loebsack.
    Mr. Loebsack. Thank you, Mr. Chair.
    This has really been a pretty fascinating discussion. I 
appreciate all the time that you folks have put into this and 
the wonderful questions of my colleagues. I taught at a small 
college for 23 years, Cornell College as opposed to Cornell 
University. But also in my district is the University of Iowa 
where in 1991 we had a mass shooting, and whenever something 
like what happened at Virginia Tech happens, it really does 
cause a lot of trauma in the area, certainly at the University 
of Iowa in Iowa City, but at the smaller institutions such as 
Cornell College in the area. I actually had a little bit of e-
mail contact with Cornell's college chaplain when the Virginia 
Tech incident happened. So I am doing my best to try to stay in 
touch with folks in the district about these issues.
    I do want to also thank Dr. Walbert and Dr. Cornell for 
your responses to my colleague Mr. Boustany's question about 
sort of utilizing local campus resources and the extreme 
caution. As a former academic myself and knowing clinical 
psychologists who are also in academics, I am very aware of 
that distinction that has to be maintained there as well.
    But I have kind of a practical question, and maybe it is 
more related to profiling than threat assessment, because I am 
still sort of grasping what the difference is, not being an 
expert in this area. I served on an admissions committee at 
Cornell College a number of times for a number of years, and I 
know a lot of institutions sort of have the same procedure that 
Cornell has, and that is not everyone who applies goes before 
that committee. A lot of people are automatically admitted if 
they meet certain admissions criteria.
    And there could be a number of people obviously who have 
mental health problems, and I thank you very much for drawing 
attention to that concern, or might be a threat of one sort or 
another to themselves or to their colleagues, and so they are 
not assessed in any way, shape or form. They may have had 
problems in high school, but we don't know about that when they 
get to the college level. They are admitted automatically, and, 
unbeknownst to administrators or faculty, they have these 
problems.
    So my question would be is there any way that we could--
should we know that information before they are admitted to 
college? And then if, for example, they come before a 
committee, should a committee be aware of that information, and 
to what extent should the committee take that into account? And 
should there be a pipeline of sorts where the information about 
someone's proclivity to violence in high school might follow 
that person through a career?
    I guess at least the two of you can answer that question, 
maybe Mr. Healy as well.
    Ms. Walbert. I will give it a shot. I think that there are 
lots of anecdotal experiences that tell us that students, 
individuals that have had trouble in the past can be very 
successful citizens, and we have to walk that tightrope very, 
very carefully. However, I think when we have information that 
indicates that a student either would have difficulty in the 
transition to the institution, the transitional issues are 
significant, they have been in an environment where something 
else has erupted, and it is similar, it is very worthy of those 
contacts to try to ascertain whether or not there should be any 
question about that participation level.
    I would much rather have that conversation at a point in 
time where as an educator I can help that student later on make 
the most of those opportunities, and we can talk about all 
sorts of mental health issues, and I can name any number of 
people that are successful citizens that have worked through 
that.
    So I think that it is a slippery slope, and while we must 
be careful for the community, we need to attend to the 
individuals as well. And as educators we are in a great 
position to be able to do that.
    Mr. Loebsack. Thank you.
    Dr. Cornell.
    Mr. Cornell. There is not a checklist or a profile that we 
can say, oh, don't admit these students because they would be 
violent. We really aren't in a position to do that. Naturally, 
any admissions committee, I assume, would be concerned if a 
student has a criminal history or history of violent behavior 
and would have to weigh that in making a decision.
    But I think much more important is how do they function on 
the campus. Do they show signs of disturbance, trouble, and can 
we reach out to them soon enough to sort of deal with the 
problem when it is at a lower level? I think our colleges need 
more resources and more orientation toward that approach.
    Mr. Loebsack. Right.
    Did you want to say anything, Mr. Healy?
    Mr. Healy. The only thing I would add is in trying to make 
a determination on an individual who is coming in as a freshman 
and their criminal background, most of those records would be 
sealed, and we wouldn't have access to them anyway. So I agree 
that this is obviously a touchy issue, a very slippery slope. 
That doesn't mean we shouldn't be thinking about how we 
evaluate our students before we allow them into our 
institutions. Clearly we should learn some lessons from this 
very tragic incident at Virginia Tech.
    Mr. Loebsack. Thank you very much.
    Thank you, Mr. Chair.
    Chairman Miller. I have six people remaining to ask 
questions, and we are going to be out of here no later than 10 
after. So the extent to which you can restrict yourself so your 
colleagues can have a question.
    Mr. Bishop.
    Mr. Bishop of New York. Thank you, Mr. Chairman. I will try 
to be quick.
    Dr. Walbert, I used to be a NASPA member, so I thank you 
for your leadership.
    Ms. Walbert. Excellent.
    Mr. Bishop of New York. One of the things we focus on in 
this committee is student cost, rapidly increasing rates of 
tuition, and we have had testimony before this committee that 
ties increase in student cost to a proliferation of nonteaching 
staff on college campuses.
    I note in your testimony that you talk about the key roles 
the student affairs professionals play, how they facilitate 
student learning, how they help maintain a healthy environment 
on the campus. Could you talk about how colleges need to make 
those kinds of judgments when they are constructing their 
budgets and where they put their staffing resources? Could you 
talk more about the role that student affairs professionals 
play?
    Ms. Walbert. It is essential to think about what the 
expectations are of the students and the parents of the 
students coming to a given institution and determine whether or 
not the services, the programs, the activities are consistent 
with those expectations. If you have a more mature population, 
they may not expect campus environment activities and so forth.
    The issue of counseling, however, is one of those things 
where it is very important to define what it is that you are 
going to provide. I could have dozens of psychiatrists on staff 
and probably address many issues with students, but thinking 
about the best utilization of the resources I have every year 
every time I have resources at hand to think about is critical 
for me as an administrator. I need to think about whether or 
not I can utilize a full-time counselor more effectively than I 
can utilize some other resource, and that stone doesn't get 
upturned any given year. We deal with it constantly to make the 
most of those resources.
    Mr. Bishop of New York. I take it you would agree cutting 
nonteaching staff is not the way to hold down tuition costs.
    Ms. Walbert. I certainly wouldn't support that.
    Mr. Bishop of New York. I will just ask one more question.
    Dr. Cornell, you make several references to the Safe and 
Drug-Free Schools. I am going to assume you are aware that the 
President's budget recommended the total elimination of that 
program for fiscal 2008. I take it that is a recommendation 
that you would urge this Congress to overrule.
    Mr. Cornell. I think it would be a disaster for our 
schools.
    Mr. Bishop of New York. Thank you very much.
    I will yield back, Mr. Chairman.
    Chairman Miller. Mr. Courtney.
    Mr. Courtney. I have just a quick question also, which is 
in terms of threat assessment, I mean contact with the court 
system certainly would seem like a red flag for a current 
student; again, I am not talking about precollege.
    Maybe this question is for you, Mr. Healy, in terms of just 
whether or not--particularly when you have got students who 
don't live in the jurisdiction where the campus is, and if 
there is trouble back home or a probate court finding like 
there was with this shooter at Virginia Tech of some mental 
issues, I mean, that does seem like a role that the Federal 
Government--and we have the NCIC system for crime information 
where there could be ways of making sure that actual 
dispositions of conduct either that broke criminal laws or 
resulted in some type of civil findings are transmitted to 
people who need to assess threats, and whether or not that 
system really works now, or whether or not that is something 
that Congress should be looking at.
    Mr. Healy. Sir, I think NCIC obviously works very well, but 
the problem is that when you have students who are engaged in 
activities around your campus, generally you will find out 
through your relationships with your local agencies. If an 
individual who is a student at your university is engaged or 
involved in a situation in another State, it is a low 
probability, because normally when students are getting in 
trouble, they don't identify themselves as, I am a student of 
Princeton University. So it is very rare we would find out 
those situations.
    So I think it is willing to discuss--it is good to have the 
conversation about how we monitor that. Again, I think it is a 
slippery slope. We understand that our students are citizens of 
the world, and obviously they engage in activities sometimes 
that aren't the best. That doesn't necessarily mean that they 
shouldn't belong in the campus community.
    Mr. Courtney. Again, I am not suggesting if someone gets in 
trouble back home, that that somehow endangers their status, 
but certainly it would seem like something the campus would 
want to know about, again, some of the indicators that would 
suggest someone is falling into trouble in terms of mental 
health issues or behavior issues.
    Ms. Walbert. If I could address that just a moment. It may 
not be on a specific matter, but we meet with our local 
judicial officers. We meet with the judge in our township. He 
knows what our expectations are on our campus and how we 
support the things that he does. So while we may not be talking 
about an individual student, when he is dealing with an 
individual, he knows how the institution expects it to be 
addressed as well. I think that is a great collaboration with 
off-campus resources as well.
    Mr. Courtney. Thank you.
    Chairman Miller. Mr. Payne.
    Mr. Payne. Thank you very much.
    In a somewhat different light I heard Dr. Kennedy mention 
about the natural disaster that occurred. Fortunately, it was 
when no students were at the school. I am a graduate of Seton 
Hall University in New Jersey, and it is also in my 
congressional district. Although it is on a little different 
subject, as you know, there was the fire at Seton Hall where 
several students died. The cause was certainly suspicious. It 
was finally determined that it was started by several young 
men.
    And I am wondering whether in your overall assessment of 
safety for children, for the students rather, have you and all 
of you that are associated with schools--very quickly, had that 
been addressed? I know we passed some Federal legislation and 
all that, but what is--since we are talking about safety in 
general, most of it is about the Virginia Tech, but how are you 
all coping with that situation of the potential of fires and 
fires being started and sometimes maybe even a mental 
instability from a student?
    Ms. Walbert. I would just say that any of the aspects of 
behavior that students exhibit that is inappropriate or in 
violation of a code of conduct is an opportunity for us to send 
a loud message. On our campus any tinkering with any kind of 
fire safety feature is a very severe violation of our code of 
conduct, and students get that message loud and clear. We have 
an opportunity to do that. There are other issues such as 
alcohol and drugs as well. But fire safety is one of those 
things that we can explain very clearly to students, and 
utilizing the existing code of conduct is one mechanism to do 
that.
    Ms. Kennedy. I would just concur with Dr. Walbert on that. 
I think that the CSU operates a similar system. We do say in 
California that we have four seasons, fire, flood, earthquake 
and summer. And so we are conscious of various kinds of acts of 
natural disaster.
    Mr. Healy. Again, I would just add that the approach that 
IACLEA recommends for responding to catastrophes and critical 
incidents is an all-hazards approach, so I think in every 
emergency management plan you will see particular pieces that 
address fire emergencies.
    As you know, we are from the same State, and New Jersey has 
very stringent requirements for colleges and universities.
    Mr. Payne. Right. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Miller. Thank you.
    Mr. Holt.
    Mr. Holt. Thank you. I will be very brief because we have 
little time, and also because I have been in and out of this 
hearing, and I don't know what I have missed. You have probably 
answered most of the questions. I just want to at this late 
time in the hearing welcome Mr. Healy and say how proud 
Princeton is of his work.
    The one specific--by the way, how proud we are that we have 
the president of the International Association of Campus Law 
Enforcement. The one specific question I have that I believe 
hasn't been answered, but you can correct me if it has, is just 
how much, Mr. Healy, do you think we can learn from looking at 
the work over the last half dozen years of secondary schools, 
because you have recommended learning those lessons and 
transferring them to the colleges and universities.
    Mr. Healy. Sir, I believe that we can learn a lot from the 
K-through-12 studies that have been conducted, and I think 
primarily it is the behavioral threat assessment model. Again, 
I think we need to take a deliberate look to ensure that the 
model as currently written is completely transferable.
    I am not so sure, and in my meetings with the FBI and the 
Secret Service, they are obviously concerned that we just don't 
take one model and just plop it over and expect that it will 
operate the same way. But clearly the behavioral threat 
assessment model is a good model that we need to consider 
studying.
    Mr. Holt. Thank you very much. I look forward to learning 
more from Dr. Cornell. I was impressed with your different 
view, I think, of what we need to do, and I thank the witnesses 
very much.
    Thank you, Mr. Chairman.
    Chairman Miller. Thank you.
    Mr. Hare.
    Mr. Hare. Thank you, Mr. Chairman.
    I just have two questions--one for you, Dr. Cornell, and 
one for Dr. Walbert.
    Dr. Cornell, not all of the threats, as you know, are the 
same, and you emphasize that school officials should not look 
at them as such, and just a two-part question.
    What are some of the elements used to assess the severity 
of a threat, and how are the students' privacies protected 
while you are doing this assessment?
    Mr. Cornell. Okay. Those are both good questions.
    We have a detailed decision tree in which we classify 
threats as transient, serious substantive, or very serious 
substantive. And there are a number of factors. You mostly have 
to consider the context in which the threat is made, and we 
have an interview protocol in which students are interviewed 
about what did you say, what did you mean by that, how do you 
think the other person took it? And then we have a similar 
interview that we do for witnesses to the threat and for the 
recipient of the threat.
    So there is a process involved to sort of understand what 
they meant by that, and then the more serious we think it is, 
the more we involve law enforcement and mental health persons. 
So there is a level at which every child then would get a 
mental health assessment which would look at their history of 
violence and their proclivity for violence, and then there 
would be a law enforcement investigation in which we might 
search the child's locker, the backpack, maybe get a search 
warrant and go to the child's home. And as you know, there have 
been many cases where a kind of threat assessment has been done 
where they have gone into children's homes and have found 
weapons in their bedrooms, for example. So there is a 
progressive series of steps that we take.
    Now, in terms of privacy, FERPA allows, in a health and 
safety emergency, to share information, and that is very 
important that they understand that FERPA, even as currently 
written, allows in a health and safety emergency to share 
information. And we include that in our training so that they 
understand, in a case where it rises to a level of a very 
serious, substantive threat, that information is not 
confidential, and so we do not promise confidentiality when we 
interview a student and we contact parents.
    On the college domain, obviously, there are some additional 
hurdles there to be dealt with--that is one of the adaptations 
that you need to make--but that, I think, can be worked out.
    Mr. Hare. Thank you.
    Dr. Walbert, just one last question here.
    You mentioned that the resident assistants are typically 
trained to recognize and address interpersonal conflicts and 
signs of mental health. What specific training are they given 
to prepare them for dealing with troubled students, and would 
you recommend that anything be added to that training, given 
what we have seen?
    Ms. Walbert. The training for resident assistants varies 
from campus to campus, but in most cases it is quite extensive; 
it is done over a series of times. Often, right before the 
academic year begins, there is an intensive span of maybe 2 
weeks of educational programs and so forth, and then there is 
ongoing training, very typically.
    The types of things that might be specific to this are 
emergency protocols, understanding how to deal with certain 
types of emergencies and so forth, but a great deal of time is 
spent on helping the individual student think about how they 
are going to interact with their peers, build the 
relationships, form the team, the community that they live in 
so that they will get the kinds of information when there is a 
concern about a student.
    The reality is that students are more apt to say something 
to another student than they are to a senior administrator of 
some sort, and we need to have the systems in place, which most 
campuses do, to use that liaison very effectively.
    So, in tooling them, we do things like, behind closed 
doors, we practice; we role-play; we give them a number of 
different kinds of experiences so that the students who are 
working for us are very much a part of the community that the 
other students are in.
    Mr. Hale. I yield back.
    Chairman Miller. Thank you.
    Mr. Altmire.
    Mr. Altmire. Thank you, Mr. Chairman.
    Dr. Walbert, again, I wanted to actually follow-up on what 
Mr. Hare was talking about.
    What does a resident assistant do when they see or they 
hear through another student--or, you know, a living companion 
or whatever the case may be--that there may be an issue with a 
student? What is the next step that takes place after that?
    Ms. Walbert. There may be a number of decisions that that 
individual has to make. They may consult with a professional 
staff member; they may reach out to the student to find out 
what is going on. Any number of times during the course of any 
given week or month, I may leave a message for a resident 
assistant and say, ``How is `so-and-so' doing?'' because I have 
gotten something from a parent or from someone else who is 
concerned about that individual. So we team together, and I do 
not supervise the R.A.s directly. I am a vice president at the 
same time. I might have that conversation with a professional 
staff member who lives in a residence hall or with an 
undergraduate student who serves as resident assistant.
    There are different options. It could be personal/private 
where you walk into a room and ask them how they are doing. It 
could be escorting them right down to the counseling center 
themselves, because the student trusts them.
    Mr. Altmire. What is the level of interaction that the R.A. 
would have once a decision is made at some point that there 
really is, maybe, an above-average situation that is taking 
place here, something out of the norm?
    Ms. Walbert. It would vary depending on the specific 
circumstances and where the trust levels existed with the 
resident assistants and the professional staff at that point. 
It might also vary given the time of day. We had a situation 
that occurred at noon, and the resident assistant was off at 
class, and it was all the professional staff who dealt with 
that particular situation. And we later got back to the 
resident assistant about what had transpired and what they 
could do to help build the community on their floor.
    Mr. Altmire. Thank you all for your time.
    Lastly, given what happened at Virginia Tech recently, has 
there been any thought to modifying the training that R.A.'s 
receive based on that one case, or do you feel like we are 
moving still in the right direction?
    Ms. Walbert. I do not have the specifics of that particular 
situation, the response at that moment in time, but I think all 
of us are very well aware of the focus that those residential 
students play in our system. They are so valuable to us. We 
talk to them at the beginning of any given year, we interact 
with them in a variety of ways, and we recognize them at the 
end of each year. At the same time, every bit of training that 
we can give them might make a difference in a critical moment.
    Mr. Altmire. Thank you.
    Chairman Miller. Thank you very much.
    Thank you to the members and to the members of the panel 
for your very thoughtful discussion this morning.
    I know, on behalf of Mr. McKeon and myself, our goal in 
this hearing is to see how we can be helpful, and I think that 
many of your comments today were very, very constructive. The 
one thing I might ask is, now that you have been through this 
experience and you have made a number of recommendations, I 
think also the question would be what it is we might do to make 
campuses safe. I know some of you have worked through Homeland 
Security; you have worked through the Justice Department; you 
have worked through the Department of Education.
    How is it that we might make that process a little bit 
simpler for access to those resources and whether or not they 
are there in a fashion to be--I mean, you have painted a pretty 
comprehensive picture here of the kinds of resources that you 
have to assemble on a campus to really deal with this problem, 
whether it is an earthquake or it is a shooter incident or 
everything in between, and sometimes we do not necessarily 
align resources with that comprehensive responsibility that 
campuses have, even of K through 12.
    We obviously look forward to Governor Kaine's report from 
the commission there, and we will be pulling this together to 
see how it is that we might be helpful. But if you have some 
suggestions along those lines, I think that would be helpful, 
because you work with these programs from the other end. We 
know they are a great idea when they leave this committee. Now, 
sometimes they get screwed up out there. So that would be 
helpful if you could call upon that experience and relay that 
to the committee. I would appreciate it. Thank you very much.
    With that, the committee stands adjourned.
    [Whereupon, at 12:10 p.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
